<html>
<title> - [H.A.S.C. No. 113-107]FISCAL YEAR 2015 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES AND NUCLEAR FORCES PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                    

                         [H.A.S.C. No. 113-107]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

  FISCAL YEAR 2015 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES

                      AND NUCLEAR FORCES PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 8, 2014


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     
                               ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

88-452                         WASHINGTON : 2015 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
 Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDREE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, April 8, 2014, Fiscal Year 2015 Budget Request for 
  Atomic Energy Defense Activities and Nuclear Forces Programs...     1

Appendix:

Tuesday, April 8, 2014...........................................    35
                              ----------                              

                         TUESDAY, APRIL 8, 2014
 FISCAL YEAR 2015 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES 
                      AND NUCLEAR FORCES PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Benedict, VADM Terry J., USN, Director, Strategic Systems 
  Programs, U.S. Navy............................................     5
Bunn, M. Elaine, Deputy Assistant Secretary of Defense for 
  Nuclear and Missile Defense Policy, U.S. Department of Defense.     3
Harencak, Maj Gen Garrett, USAF, Assistant Chief of Staff for 
  Strategic Deterrence and Nuclear Integration, U.S. Air Force...     5
Held, Edward Bruce, Acting Administrator and Acting Under 
  Secretary for Nuclear Security, National Nuclear Security 
  Administration.................................................     9
Huizenga, David G., Acting Assistant Secretary, Office of 
  Environmental Management, U.S. Department of Energy............     7
Richardson, ADM John M., USN, Director, Naval Nuclear Propulsion 
  Program, U.S. Navy.............................................     6
Weber, Hon. Andrew C., Assistant Secretary of Defense for 
  Nuclear, Chemical, and Biological Defense Programs, U.S. 
  Department of Defense..........................................     2
Winokur, Dr. Peter S., Chairman, Defense Nuclear Facilities 
  Safety Board...................................................     8

                                APPENDIX

Prepared Statements:

    Benedict, VADM Terry J.......................................    65
    Bunn, M. Elaine..............................................    51
    Harencak, Maj Gen Garrett....................................    76
    Held, Edward Bruce...........................................   133
    Huizenga, David G............................................    95
    Richardson, ADM John M.......................................    90
    Rogers, Hon. Mike............................................    39
    Weber, Hon. Andrew C.........................................    41
    Winokur, Dr. Peter S.........................................   106

Documents Submitted for the Record:

    Section 1042 Report..........................................   147
    Letter to Senators Reid and McConnell from Representatives 
      Rogers and Cooper..........................................   153
    Letter to Secretary Moniz from Representatives McKeon and 
      Rogers.....................................................   154
    Chart submitted by Mr. Held..................................   156

Witness Responses to Questions Asked During the Hearing:

    Mr. Cooper...................................................   159
    Mr. Garamendi................................................   159
    Mr. Rogers...................................................   159

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   172
    Mr. Garamendi................................................   177
    Mr. Rogers...................................................   163
    Ms. Sanchez..................................................   174
 
FISCAL YEAR 2015 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES 
AND NUCLEAR FORCES PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Tuesday, April 8, 2014.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. This subcommittee hearing will 
come to order. I want to welcome our hearing participants on 
the President's fiscal year 2015 budget request for atomic 
energy defense activities and nuclear forces programs.
    I want to thank our witnesses for being here today. We are 
very proud to have these witnesses here with us today, and we 
have a lot of ground to cover in this hearing.
    And our distinguished witnesses are the Honorable Andrew 
Weber, Assistant Secretary of Defense for Nuclear, Chemical and 
Biological Defense Programs at the U.S. Department of Defense; 
Ms. Elaine Bunn, Deputy Assistant Secretary of Defense for 
Nuclear and Missile Defense Policy at the U.S. Department of 
Defense; Vice Admiral Terry Benedict, Director of Strategic 
Systems Programs of the U.S. Navy; Major General Garrett 
Harencak, Assistant Chief of Staff for Strategic Deterrence and 
Nuclear Integration; Bruce Held, Acting Administrator and 
Acting Under Secretary for Nuclear Security, at the National 
Nuclear Security Administration [NNSA]; Admiral John 
Richardson--happy birthday to you--Director of Naval Nuclear 
Propulsion Program, U.S. Navy and National Nuclear Security 
Administration; Mr. David Huizenga, Senior Advisor for 
Environmental Management, U.S. Department of Energy [DOE]; and 
Mr. Peter Winokur, Chairman, Defense Nuclear Facility Safety 
Board. That is a mouthful.
    I appreciate all of you taking time to be here at this 
hearing. As always, we appreciate your contributions that each 
and every one of you make.
    Before I hand the floor over to the ranking member, let me 
highlight just a few issues to which we are paying close 
attention. First, today, 2 years late, we have finally received 
the administration's proposed nuclear force structure under the 
New START [Strategic Arms Reduction Treaty]. I am glad to see 
that the President made the right decision, the decision that 
was obvious to us 2 years ago. We will take a hard look at this 
in the coming weeks, and we will discuss it today, I am sure.
    Second, the governance and management of the DOE and NNSA. 
We had a hearing 2 weeks ago to receive the interim report of 
the congressional advisory panel on this topic. It was 
sobering, and it confirmed what this subcommittee has been 
saying for many years. We had 13 members show up at that 
hearing. I hope that shows just how serious we are taking this. 
We are as serious as a heart attack, and we want to make sure 
that we see some bold actions at the NNSA.
    Third, promised capabilities and programs keep slipping 
despite significant budget increases. Fulfillment of the 
requirement for this responsive nuclear infrastructure keeps 
being pushed into the distant future, and we have wasted 
billions of dollars with false starts. The follow-on to the 
air-launched cruise missile is pushed and may put both the 
nuclear security enterprise and the Strategic Command in a real 
bind. The interoperable warhead, a key pillar of the 
administration's future stockpile strategy, has been pushed out 
of sight on the calendar.
    Fourth, integrity and leadership problems in our nuclear 
forces.
    General Harencak and Admiral Richardson, we appreciate the 
updates you and your services have been providing us.
    The services need to get on top of this. It is particular--
in particular, the Air Force needs to take a long, hard look at 
itself and how it is leading and managing its nuclear forces. 
Recent actions give us hope, but they must only be a start.
    Let me end on a bright note. The B61 life extension 
program, which many on this subcommittee and many at the 
witness table have fought to get back on track, is succeeding. 
NNSA and the Air Force are on schedule, on budget, and 
delivering for the Nation.
    Good work. This is an important first step for rebuilding 
the trust and confidence of the Congress, the American people, 
and our allies.
    Thanks again to our witnesses. I look forward to our 
discussion. And with that, let me recognize the ranking member, 
my friend and colleague from Tennessee, Mr. Cooper.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 39.]
    Mr. Cooper. I thank the chairman, my friend. I have no 
opening statement. I look forward to the testimony of the 
witnesses.
    Mr. Rogers. Great. I appreciate that.
    And we will now--I think that the witnesses, as you can 
see, we have got a large group of witnesses. Ask you to 
synopsize your opening statement to 3 minutes so we can try to 
get through the panel and get to some healthy questions.
    Mr. Weber, you are recognized first.

   STATEMENT OF HON. ANDREW C. WEBER, ASSISTANT SECRETARY OF 
DEFENSE FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL DEFENSE PROGRAMS, 
                   U.S. DEPARTMENT OF DEFENSE

    Secretary Weber. Thank you. Chairman Rogers, Ranking Member 
Cooper, and distinguished members of this subcommittee, thank 
you for giving us the opportunity to discuss the 2015 budget 
request for Department of Defense nuclear forces programs. It 
is an honor to come before you with my Department of Defense 
and Department of Energy colleagues to testify on our efforts 
to modernize and sustain a safe, secure, and effective nuclear 
weapons stockpile.
    Guided by the Nuclear Weapons Council, our Departments have 
made substantial progress over the last year. However, stark 
budget realities continue to stress our efforts to update an 
aging stockpile and infrastructure.
    In January, I accompanied Secretary Hagel on his visits to 
Kirtland and F.E. Warren Air Force Bases and Sandia National 
Laboratories. We had the opportunity to speak with and learn 
from our extraordinary airmen and laboratory personnel, whose 
dedication and professionalism are an inspiration. While there, 
Secretary Hagel emphasized to them that we are going to invest 
in the modernization required to maintain an effective 
deterrent.
    Our most vital modernization efforts include the life 
extension programs for the W76-1 submarine-launched ballistic 
missile [SLBM] warhead and the B61-12 gravity bomb. The B61 
life extension program [LEP], which the chairman referred to as 
a bright note, is currently undergoing development engineering 
and prototypes are being assembled for early testing. Due to 
sequestration impacts, the schedule for first production has 
been revised to the second quarter of 2020. This will just meet 
U.S. Strategic Command and NATO [North Atlantic Treaty 
Organization] operational requirements.
    The B61-12 program will replace four current models with 
one and enable the retirement of the B83, the last megaton bomb 
in the stockpile.
    Stable funding for the B61 life extension program is 
critical to the viability of the B-2 strategic bomber and 
commitments to our NATO allies. We thank you for your continued 
strong support of this program.
    The world is safer today from the threat of full-scale 
nuclear war than it was during the Cold War. While the role and 
numbers of weapons are being reduced, maintaining a safe, 
secure, and effective nuclear stockpile is critical to 
deterring potential adversaries and assuring U.S. allies and 
partners. We ask for your support of the President's fiscal 
year 2015 budget request.
    Thank you for the opportunity you have given us to testify 
today, and we look forward to your questions.
    [The prepared statement of Secretary Weber can be found in 
the Appendix on page 41.]
    Mr. Rogers. I thank the gentleman.
    Ms. Bunn, you are recognized for 3 minutes.

  STATEMENT OF M. ELAINE BUNN, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY, U.S. DEPARTMENT 
                           OF DEFENSE

    Ms. Bunn. Thank you, Chairman Rogers, Ranking Member 
Cooper, distinguished members of the subcommittee.
    Thanks for the opportunity to testify on our nuclear 
forces. I would like to address several issues that go beyond 
my advance written statement.
    Russia's unexpected and dangerous aggression in Ukraine, in 
violation of international law, compels us to revisit our 
expectations about future Russian behavior and to reassess a 
number of U.S. and NATO policies with regard to Russia. But two 
of our national interests are clear: First, strengthening 
NATO's collective defense. As General Breedlove said, ``We are 
going through a paradigm shift.'' NATO Secretary General 
Rasmussen said at a recent ministerial, ``We are now 
considering all options to enhance our collective defense, 
including an update and further development of our defense 
plans, enhanced exercises and also appropriate deployments,'' 
unquote.
    Second, this administration, like its predecessors, has 
sought a stable strategic nuclear relationship with Russia, 
especially during times of turbulence elsewhere in the 
relationship, so we will continue to implement the New START 
Treaty ratified by the Senate in December 2010. We want to 
continue to implement New START with Russia, because it is in 
our national interest. The inspections and notifications under 
the treaty give us a window into Russian strategic forces and 
limits them for the duration of the treaty. And we will 
continue to pursue our concerns about Russian compliance with 
the Intermediate-range Nuclear Forces Treaty.
    As Chairman Rogers mentioned, today we announced the 
strategic force structure that will bring us to the New START 
limits by February 2018 and provided the congressional report 
required under Section 1042. That report has details on this 
decision, so I won't go into all the details now, but let me 
just summarize that our 700 deployed strategic forces will look 
like this: 400 deployed intercontinental ballistic missiles 
[ICBMs], 240 deployed SLBMs, and 60 deployed nuclear-capable 
heavy bombers. The 100 nondeployed strategic missile launchers 
and bombers will consist of 54 ICBM launchers, including 50 
warm ICBM silos--that is, empty but still functional--spread 
across three bases; 40 SLBM launch tubes; and 6 bombers. We 
will also convert 56 SLBM tubes to remove them from treaty 
accountability and convert 30 B-52 bombers to conventional-only 
role.
    This force structure achieves right balance of flexibility, 
survivability, responsiveness of our nuclear forces and 
supports our national security objectives by providing a mix of 
force capabilities and attributes to ensure the President has 
an array of options available under a broad range of scenarios 
and preserves a just-in-case upload capability for each leg of 
the triad.
    At present, Russia as well as the U.S. seems determined to 
preserve the strategic nuclear stability embodied in the New 
START Treaty.
    Mr. Chairman, thank you for having me here today and, 
again, thank you for the work you do to provide for the common 
defense. Look forward to your questions.
    [The prepared statement of Ms. Bunn can be found in the 
Appendix on page 51.]
    Mr. Rogers. Thank you, Ms. Bunn.
    And without objection, the Section 1042 report that Ms. 
Bunn referenced will be entered into the record. So ordered.
    [The information referred to can be found in the Appendix 
on page 147.]
    Mr. Rogers. Admiral Benedict.

 STATEMENT OF VADM TERRY J. BENEDICT, USN, DIRECTOR, STRATEGIC 
                  SYSTEMS PROGRAMS, U.S. NAVY

    Admiral Benedict. Chairman Rogers, Ranking Member Cooper, 
distinguished members, thank you for the opportunity to testify 
today. I represent the men and women of the Navy's Strategic 
Systems Programs.
    My mission as the Director of Strategic Systems Programs 
[SSP] is to design, develop, produce, support, and ensure the 
safety and the security of our Navy's sea-based strategic 
deterrent capability, the Trident II (D5) Strategic Weapons 
System. My written statement, which I respectfully request to 
be submitted for the record, addresses my top priorities. I 
would like to talk to three this afternoon.
    First, my top priority is the safety and the security of 
the Navy's nuclear weapons. Custody and accountability of the 
nuclear assets entrusted to the Navy are the cornerstone of 
this program. Our approach to the nuclear weapons mission is to 
maintain a culture of excellence and self-assessment that 
produces the highest standards of performance and integrity.
    Second, the Navy is proactively taking steps to address 
aging and technology obsolescence. SSP is extending the life of 
the Trident II (D5) Strategic Weapons System to match the Ohio-
class submarine service life and to serve as the initial 
baseline mission payload for the Ohio replacement submarine 
platform. This is being accomplished through a life extension 
program to all the Trident II (D5) sub systems to include 
launcher, navigation, fire control, guidance, missile, and 
reentry.
    Finally, I remain concerned with the decline in demand for 
solid rocket motors. While the Navy is maintaining a continuous 
production of solid rocket motors, the demand from both NASA 
[National Aeronautics and Space Administration] and the Air 
Force has declined. This has put an entire specialized industry 
at risk. While the efforts of our industrial partners and 
others have created short-term relief, the long-term support of 
the solid rocket motor industry remains a national issue.
    Thank you for the opportunity to testify today, and I will 
be pleased to take your questions at the appropriate time, sir.
    [The prepared statement of Admiral Benedict can be found in 
the Appendix on page 65.]
    Mr. Rogers. Thank you, Admiral.
    General Harencak, you are recognized for 3 minutes.

STATEMENT OF MAJ GEN GARRETT HARENCAK, USAF, ASSISTANT CHIEF OF 
 STAFF FOR STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION, U.S. 
                           AIR FORCE

    General Harencak. Chairman Rogers, Ranking Member Cooper, 
distinguished committee members, thank you for your continued 
support of our triad and of our Air Force. I appreciate the 
opportunity to update the subcommittee today on Air Force 
nuclear programs and policies. I respectfully request that my 
written statement be entered into the record, and I look 
forward to your questions.
    [The prepared statement of General Harencak can be found in 
the Appendix on page 76.]
    Mr. Rogers. Well done.
    All right, birthday boy, Admiral Richardson. 
Congratulations on another birthday. We won't make you tell us 
how old you are, but--
    Admiral Richardson. All right. Thank you, Chairman.
    Mr. Rogers [continuing]. You are recognized for 3 minutes.

   STATEMENT OF ADM JOHN M. RICHARDSON, USN, DIRECTOR, NAVAL 
             NUCLEAR PROPULSION PROGRAM, U.S. NAVY

    Admiral Richardson. Chairman Rogers, Ranking Member Cooper, 
distinguished members of the committee, it is a privilege to 
testify before you. I am grateful for the consistent and strong 
support this subcommittee has given to Naval Reactors, and I 
look forward to the discussion of our fiscal year 2015 budget.
    My budget request this year enables me to meet my primary 
responsibility to ensure safe and reliable operation of the 
Nation's nuclear-powered fleet. My fiscal year 2015 request is 
26 percent higher than my fiscal year 2014 appropriation. This 
increase directly supports our increased workload, including 
three discrete national priority projects and sustaining the 
program's technical support base. The three projects include 
designing a new reactor plant for the Ohio-class SSBN 
replacement, refueling a research and training reactor in New 
York, and replacing the spent fuel handling facility in Idaho.
    The funding for my technical support base, about $950 
million, is absolutely essential, providing for resolution of 
emergent fleet issues, spent nuclear fuel management, 
technology development, and operation of prototype research and 
training reactors. It also provides my foundational 
capabilities, such as security, environmental stewardship, and 
laboratory facilities. In short, my technical base and my 
laboratories is the intellectual engine that drives safe, 
reliable, and responsible operation of the nuclear-powered 
fleet, past, present, and future.
    $156 million of my request funds a new reactor plant for 
the Ohio-class replacement submarine. The new propulsion plant 
includes a reactor core designed to last the entire lifetime of 
that submarine, 42 years, without needing to be refueled, and 
will save the Navy over $40 billion in life-cycle costs.
    The request for refueling and overhaul of our land-based 
prototype reactor, $126 million, is necessary to improving the 
technologies for that life of the ship core as well as training 
about 1,000 nuclear operators for the next 20 years.
    The fiscal year 2015 request for the spent fuel handling 
recapitalization project, $145 million, is required to refuel 
aircraft carriers and submarines, providing a safe and 
effective means of processing and putting their spent fuel into 
dry storage. The existing expended core facility is close to 60 
years old, is the oldest spent fuel pool of its type in the 
country. This facility is showing its age, including leaking 
water pool walls and cracked floors. And while operated safely 
and responsibly, it is getting harder every year.
    My fiscal year 2015 request is especially critical in light 
of my fiscal year 2014 funding levels. As just one example, a 
23 percent shortfall to my operations and infrastructure 
requirements resulted in insufficient funds to do required 
maintenance on one of my land-based prototypes, and without 
relief, I will have no choice but to shut down that reactor, 
resulting in 450 nuclear-trained operators not reporting to the 
fleet, putting a greater burden on sailers and families that 
are already sustaining 9- to 10-month deployments.
    Mr. Chairman, with the sustained support of this 
subcommittee to do our work, I will continue to lead my team to 
execute our work on time and on budget, and will search 
tirelessly for the safest and most cost-effective way to 
support the Nation's nuclear-powered fleet. Thank you again. I 
am ready to answer your questions.
    [The prepared statement of Admiral Richardson can be found 
in the Appendix on page 90.]
    Mr. Rogers. I thank you.
    Mr. Huizenga, you are recognized for 3 minutes.

  STATEMENT OF DAVID G. HUIZENGA, ACTING ASSISTANT SECRETARY, 
 OFFICE OF ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Huizenga. I am pushing that button. Is it on?
    Mr. Rogers. There you go.
    Mr. Huizenga. Oh, there we are. Good.
    Good afternoon, Chairman Rogers, Ranking Member Cooper, and 
distinguished members of the subcommittee. I am pleased to be 
here today to represent the Department of Energy's Office of 
Environmental Management [EM] and to discuss the many positive 
things the program has achieved and what we plan to accomplish 
under the President's 2015 budget request.
    Our request of $5.3 billion for defense-related activities 
will allow the Environmental Management program to continue the 
safe cleanup of the environmental legacy brought about from 
five decades of nuclear weapons development and government-
sponsored nuclear energy research. The request includes $4.865 
billion for defense cleanup activities and $463 million for the 
defense contribution to the uranium enrichment decontamination 
and decommissioning fund should Congress choose to reauthorize 
the fund.
    EM continues to pursue its cleanup objectives, guided by 
three overarching principles. Most importantly, we will 
continue to discharge our responsibilities by conducting 
cleanup within a safety-first culture that integrates 
environmental, safety, and health requirements and controls 
into all of our work activities.
    After safety, we are guided by a commitment to comply with 
our regulatory and legal obligations and, finally, to be good 
stewards of the financial and natural resources entrusted to 
us.
    This marks the 25th anniversary of the Environmental 
Management program, and we have achieved a great deal in that 
time. When we were created in 1989, we were charged with 
cleaning up 107 sites across the country with a total area 
equal to Rhode Island and Delaware combined. In the 25 years 
since EM has been working on these projects, we have completed 
91 of the 107 sites and have made significant progress on the 
remaining 16.
    The President's fiscal year 2015 budget request will allow 
us to continue to make significant progress on our ongoing 
cleanup mission. To provide just a few specific highlights, 
with the requested funds, we will complete the treatment of 
900,000 gallons of liquid radioactive waste at Idaho, emptying 
the last four of the site's aging waste storage tanks. We will 
continue construction of the waste treatment and mobilization 
plant at Hanford to process and immobilize liquid waste into 
solid-glass logs for permanent disposal. We will also continue 
to clean up the bulk of the more than 500 facilities along the 
Columbia River at Hanford.
    And at Tennessee, we will complete the preliminary design 
for an outfall for our mercury treatment facility, while 
continuing to develop the technologies needed to characterize 
and remediate mercury in the environment. And finally, at 
Savannah River Site in South Carolina, we will immobilize and 
dispose of a million gallons of high-level waste, bringing the 
site's high-level waste mission to approximately 50 percent 
completion.
    In closing, I am honored to be here today representing the 
Office of Environmental Management. EM is committed to 
achieving our mission and will continue to apply innovative 
cleanup strategies to complete the work safely, on schedule, 
and within cost, thereby demonstrating a value to the American 
taxpayers. We made significant progress in the last quarter 
century, and our 2015 request will allow us to capitalize on 
past investments and successes.
    Thank you, and I will be happy to take questions in turn.
    [The prepared statement of Mr. Huizenga can be found in the 
Appendix on page 95.]
    Mr. Rogers. And I thank the gentleman.
    The chair now recognizes Dr. Winokur for 3 minutes.

 STATEMENT OF DR. PETER S. WINOKUR, CHAIRMAN, DEFENSE NUCLEAR 
                    FACILITIES SAFETY BOARD

    Dr. Winokur. Thank you, Chairman Rogers, Ranking Member 
Cooper, and members of the subcommittee. I am the chairman of 
the Defense Nuclear Facilities Safety Board, known as the 
DNFSB, or Board. We are the only agency that provides 
independent safety oversight of DOE's defense nuclear 
facilities. I have submitted a written statement for the record 
that describes the Board's mission and highlights a number of 
safety issues that are particularly important to ensuring that 
the DOE defense nuclear complex can safely accomplish its 
missions.
    The Board's budget is essentially devoted to maintaining 
and supporting an expert staff of engineers and scientists, 
nearly all of whom have technical master's degrees or 
doctorates, to accomplish our highly specialized work.
    The President's budget request for fiscal year 2015 
includes $30.15 million in new budget authority for the Board. 
It will support 125 personnel. This level of staffing is needed 
to provide sufficient independent safety oversight of DOE's 
defense nuclear complex, given the pace and the scope of DOE's 
activities.
    The Board provides safety oversight of the multitude of 
operations critical to national defense. These operations 
include assembly and disassembly of nuclear weapons, 
fabrication of plutonium pits and weapon components, production 
and recycling of tritium, criticality experiments, subcritical 
experiments, and a host of activities to address the 
radioactive legacy resulting from 70 years of nuclear weapons 
operations.
    While the Board supports DOE and NNSA efforts to integrate 
safety into the design of new defense nuclear facilities, 
continued delays regarding the path forward for modernizing 
uranium and plutonium capabilities in a weapons complex 
requires the Board to provide safety oversight of ongoing work 
in existing aging facilities that do not meet modern safety 
standards.
    In February, the Waste Isolation Pilot Plant experienced an 
underground fire and release of radioactive material. The board 
is reviewing available information to assess the causal 
factors, emergency response, recovery activities, and 
corrective actions for both of these events. Fortunately, no 
one was seriously hurt in either event. These were near misses.
    The fire and radioactive material release events will serve 
as vivid reminders that accidents do happen and that they can 
have major safety consequences and mission impacts.
    The Board continues to stress the importance of emergency 
preparedness, response, and recovery, and addresses this topic 
at each of its public hearings.
    Let me add in closing that the Board and DOE together have 
built a constructive working relationship. Many of the safety 
concerns raised by the Board or our staff are addressed without 
the need for formal communications to DOE. I am confident that 
all Board members understand that an efficient, effective, and 
safe nuclear security enterprise is the highest priority and 
the needs of the Nation must come first.
    This concludes my statement. I will be happy to answer any 
questions you may have.
    [The prepared statement of Dr. Winokur can be found in the 
Appendix on page 106.]
    Mr. Rogers. Thank you, sir.
    The chair now recognizes Mr. Held for 3 minutes.

STATEMENT OF EDWARD BRUCE HELD, ACTING ADMINISTRATOR AND ACTING 
UNDER SECRETARY FOR NUCLEAR SECURITY, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Mr. Held. Chairman Rogers, Ranking Member Cooper, members 
of the committee, I am honored to be with you today.
    The fiscal year 2015 budget request for the National 
Nuclear Security Administration is a clear expression of 
President Obama's commitment to America's nuclear security. 
Within the fiscal constraints of the Bipartisan Budget Act, the 
President requests a 4 percent increase for NNSA to $11.7 
billion. This includes a 26 percent increase for naval nuclear 
reactors and a 7 percent increase for nuclear weapons 
activities.
    NNSA has performance challenges ahead of us, and Secretary 
Moniz will always be straightforward with you about those 
challenges. At the same time, NNSA has significant successes to 
build on, and the Secretary insists that we get out of our 
defensive crouch and honestly tell our success stories in a way 
that is meaningful to the American people.
    Regarding nuclear security, for example, our 
counterintelligence program was dysfunctional less than 10 
years ago. Today, DOE counterintelligence is highly effective, 
respected, and trusted. Less than 10 months ago, NNSA 
communications with our colleagues on the Nuclear Weapons 
Council [NWC] were strained. Today those communications are 
healthy, more transparent, and this improved atmosphere is 
helping us focus on the big strategic issues for which the NWC 
exists.
    On nonproliferation, in just the last 4 years, 11 countries 
plus Taiwan have eliminated their caches of sensitive nuclear 
materials and security has been hardened at scores of nuclear 
storage facilities worldwide to prevent theft by potential 
terrorists. The world is a safer place as a result.
    On project management, NNSA has been on the GAO [Government 
Accountability Office] High Risk List literally since the day 
it was born in March 2000. Since February 2011, however, we 
have consistently been on schedule and on budget for large 
projects up to $750 million. As a result, GAO has taken NNSA 
off its High Risk List for projects of this size for the first 
time in the organization's history.
    As you know very well, we still have issues with the 
multibillion dollar mega projects, but thanks to the greater 
discipline and more agile strategy that Secretary Moniz has 
brought with him, we are making progress on those projects as 
well.
    That leads me to our first and foremost responsibility: 
nuclear safety. For nuclear safety reasons, we simply must 
modernize the aging infrastructure for enriched uranium 
processing in Oak Ridge; we must modernize the aging 
infrastructure for plutonium processing in Los Alamos; and 
wherever we can reliably do so, we should replace conventional 
high explosives in our nuclear stockpile with safer, 
insensitive high explosives.
    And if we take a commonsense approach that emphasizes 
better sooner rather than perfect later, all of these are 
doable within reasonable cost. But if, heaven forbid, we have a 
nuclear safety accident because we have not done so, then, Mr. 
Chairman, NNSA will truly have failed and we will forever 
forfeit the trust and confidence of the American people for all 
things nuclear.
    Thank you, sir.
    [The prepared statement of Mr. Held can be found in the 
Appendix on page 133.]
    Mr. Rogers. I thank the gentleman.
    I thank the panel. Well done on the time.
    I am pretty impressed that you all were able to stay within 
that 3 minutes.
    Mr. Held, I know that you have done a great service for 
this country by coming in on an interim basis at the NNSA.
    Mr. Held. Thank you, sir.
    Mr. Rogers. It looks like, hopefully, we are going to get 
you relief pretty soon. The ranking member and I sent a letter 
over to the Senate asking them to please take up the 
confirmation of our nominee.
    Mr. Held. Thanks. That letter, I think, hits this 
afternoon.
    Mr. Rogers. That is right. So it looks like the cavalry is 
on the way to help you out, but I wanted it entered into the 
record.
    [The information referred to can be found in the Appendix 
on page 153.]
    Mr. Rogers. But with that, I do want to make reference to 
another letter. Mr. Held, Chairman McKeon and I sent a letter 
to Secretary Moniz, which I will introduce in a minute, but to 
Secretary Moniz in March expressing our deep concern that DOE 
and NNSA had let another multimillion dollar facility 
construction project spin out of control, which you made 
reference in your opening statement.
    We strongly support the need to replace the decrepit 
uranium facilities at Y-12, but it seems like NNSA and DOE has 
once again failed the Nation on this large contract. We have 
already spent over $1.2 billion on the design for this big-box 
uranium processing facility, and the NNSA is studying 
alternatives for that design. It seems like the big-box will 
never be built. So quite a bit of this $1.2 billion is gone 
with nothing to show for it.
    I understand that your red team will propose an alternative 
approach a week from today. And I will introduce the letter 
that we sent to Secretary Moniz for the record.
    [The information referred to can be found in the Appendix 
on page 154.]
    Mr. Rogers. My question is, who within the DOE, NNSA, and 
its contractors is being held accountable for this massive 
failure?
    Mr. Held. Sir, as you know, that has been a major problem. 
The big-box strategy has not worked for us. We are finding that 
the better sooner rather than perfect later is the way to go. 
That seems to be working effectively, shows great promise in 
the plutonium reprocessing facilities up at Los Alamos, and 
that is the reason why we are doing this, taking the same 
approach down at Oak Ridge with uranium.
    The big-box approach that we were on, thanks to the CAPE 
[Cost Assessment and Program Evaluation] study, was really 
looking, it was going to--it would not be--we would not get 
into a new facility until the year 2038, which is close to 100 
years after the original building at 9212 was constructed and 
well after most people who are today working at Oak Ridge would 
be long retired. So we have got to do better than that, and 
that is the reason that I have asked Thom Mason, the director 
of Oak Ridge National Laboratory, to lead the red team from 
across the complex to take a look at this issue and to get us a 
better solution by the year 2025 within the budget constraints.
    In terms of accountability, I think you have seen that we 
have changed the--we have selected a new management and 
operating [M&O] contractor down at Oak Ridge. We will be 
driving that contract to performance excellence. Bob Raines, at 
our Acquisition and Project Management, will be doing that. And 
you have also seen, I believe, that the Federal site office 
manager has been replaced over the past year.
    Mr. Rogers. You are talking about the program manager?
    Mr. Held. On that, on the Federal site office manager, we 
brought in a new Federal project manager, John Eschenberg.
    Mr. Rogers. What happened to the project manager who was 
overseeing this when it went off the track?
    Mr. Held. They are gone now at this point.
    Mr. Rogers. Are they still employed with the government, or 
are they fired?
    Mr. Held. I believe they retired. I can take that and check 
that out for you, the factual. We brought in John Eschenberg 
specifically to take a look at that project.
    [The information referred to can be found in the Appendix 
on page 159.]
    Mr. Rogers. Did he have sole responsibility for this 
project when it went off the rail?
    Mr. Held. John? No. John has been brought in since that 
time. And John does--he is the Federal project manager----
    Mr. Rogers. But $1.2 billion. Anybody else lose their job 
over this?
    Mr. Held. The previous project manager and the previous 
site office manager are no longer with us, yes, sir.
    Mr. Rogers. Does that mean they are retired or terminated 
or just relocated?
    Mr. Held. I believe they both retired, sir.
    Mr. Rogers. Okay. Let me ask this: Do you have any idea as 
yet how much we are going to be able to use of the engineering 
that came from that $1.2 billion in whatever we do and how much 
is just gone?
    Mr. Held. Some of it is just gone. We need to be frank and 
honest about that, some. The M&O contractor who was designing 
it made some mistakes. Some of that is gone.
    The effort underway by Dr. Mason is one of the elements of 
the charter letter, the charge letter that I sent to him is to 
use as much of the existing design and to profit from as much 
of the U.S. taxpayer investment as possible as we look for a 
smarter and faster way to proceed.
    Mr. Rogers. Yeah. What percentage would you estimate that 
we have just lost, 25 percent, 50 percent of the engineering 
that we paid for?
    Mr. Held. I would have to get a specific--I will take the 
question and get a specific number for you, but I would guess 
it is probably close to half of it.
    [The information referred to can be found in the Appendix 
on page 159.]
    Mr. Rogers. That is awful. Will you also provide to the 
Congress an updated detailed project description and project 
data sheet for the uranium facility within 2 weeks, because the 
fiscal year 2015 budget request materials are asking us to 
authorize and appropriate $335 million to continue design 
activities for a big-box facility that is almost certainly 
never going to get built?
    Mr. Held. The--it is--we will get Dr. Mason's report a week 
from today. I think it unlikely that we will have a big-box 
strategy. I think it unlikely that he will recommend a big-box 
strategy. And we would be using that money to effectively 
implement a more cost-effective and more quicker approach. We 
really need to get out of Building 9212 by the year 2025 at the 
very latest.
    Mr. Rogers. When he gets that to you, will you get us to 
us, please?
    Mr. Held. We will get it very promptly to you, sir.
    Mr. Rogers. Great. Thanks.
    [The information referred to is For Official Use Only and 
retained in the committee files.]
    Mr. Rogers. Mr. Weber, in the fiscal year 2014 budget 
cycle, the DOD's CAPE office proposed a large set of 
efficiencies at NNSA that would help NNSA put more money 
directly toward military priorities, particularly the warhead 
life extension program. The Nuclear Weapons Council, including 
acting NNSA Administrator Miller agreed to this multiyear, 
multibillion dollar set of efficiencies. As executive director 
of this council, did you review those proposed efficiencies, 
and did you support them in the fiscal year 2014 budget and 
out-years?
    Secretary Weber. Yes, Mr. Chairman.
    The Nuclear Weapons Council in its certification of the 
fiscal year 2014 budget submission had reviewed those 
efficiencies, which were baked into the--to the budget request 
in fiscal year 2014. I believe it was about $340 million.
    It is not a one-time act. This is a continuous process 
improvement, and our CAPE office is available on a continuing 
basis to support NNSA in its efforts to drive even more 
efficiencies.
    Mr. Rogers. Okay. Last week in my office, you told me that 
the DOD report that has details on these proposed efficiencies, 
that you have it with you today. Do you have that?
    Secretary Weber. No, Mr. Chairman. We will have that for 
you. And I have spoken to Acting Administrator Bruce Held about 
this. We will have that for you, the full report that is due to 
you, and I apologize that it is tardy, by the end of this 
month.
    Mr. Rogers. Okay. And do you know offhand how much--where 
those efficiencies were for fiscal year 2014?
    Secretary Weber. I believe the number was $340 million, Mr. 
Chairman.
    Mr. Rogers. And how about 2015?
    Secretary Weber. It was over the Future Years Nuclear 
Security Program [FYNSP] of the 5-year plan.
    Mr. Rogers. Okay. With that, I yield back, and I recognize 
the ranking member for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    And I thank the witnesses for being here. I can't imagine a 
heavier responsibility on this Earth than being in charge of 
the entire nuclear weapons enterprise for the United States, so 
I trust that you gentlemen and ladies will do your jobs to keep 
them safe, secure, and reliable.
    Ms. Bunn, you mentioned the New START 1042 document, and it 
is my understanding that that is solidly supported by the Joint 
Chiefs of Staff. Is that correct?
    Ms. Bunn. Yes, sir.
    Mr. Cooper. I think it is important to get that on the 
record so the American people know this isn't just some 
Pentagon document, this is a consensus of the Joint Chiefs.
    Dr. Winokur, if you could tell me what lessons, if any, we 
should learn from the Waste Isolation Pilot Plant [WIPP] 
disaster or near disaster that happened in February.
    Dr. Winokur. Well, Mr. Cooper, I think there are several 
lessons we can learn from it. If we go back to the immediate 
cause of the accident, the proximate cause, there was obviously 
a shortfall in preventative maintenance. What happened was a 
salt truck caught on fire, so that was certainly an issue that 
we have to deal with.
    I think that there were issues with emergency response and 
preparedness that need to be addressed. It is something that 
the Board has a great deal of interest in.
    And there were obviously mistakes made during the response 
of the fire and during the response of the contamination 
events. That is a lesson we should take away from it.
    I think that what we saw, once again, were weaknesses in 
the contractor assurance system and the Federal oversight, and 
those are also areas that we are going to have to strengthen, 
or I think the Department of Energy needs to strengthen over 
time.
    I think the last I think thing I take away from it, and I 
said it in my spoken statement, is that accidents happen, and 
we need to be prepared for them. It isn't just Fukushima; these 
aren't just chance occurrences. There are a lot of low-
probability, high-consequence accidents the Department and NNSA 
need to be willing and able to deal with.
    Those are the things I would immediately take from it.
    Mr. Cooper. Is there a timetable for that facility to 
reopen?
    Dr. Winokur. That would be--excuse me--a better question 
for Mr. Huizenga.
    Mr. Cooper. Mr. Huizenga.
    Mr. Huizenga. We have sent teams down into the mine twice 
now into--through the air intake shaft and the salt handling 
shaft, and we have established in a sense a clean area down in 
the mine from which a base of operations. Within the next week 
or two, we will proceed to the waste space and try to 
understand exactly what happened. And really I won't be able to 
give you a clear sense of timing until we actually get to the 
waste space and understand better what actually occurred.
    Mr. Cooper. Are we weeks away, months away?
    Mr. Huizenga. We are probably, you know, within a couple 
weeks of actually getting to the waste space, that would be my 
guess, and at that point, we will--we are already--in 
anticipation of what we might find, we have been working with 
the chairman, Winokur, and his staff to understand, you know, 
how to make sure that we proceed safely as we traverse the 
probably thousand feet or so from our entry point over to the 
waste space and what we might indeed have to do once we get 
there to ultimately clean up the contamination and get back in 
business, but we are committed to do so and committed to do so 
in a safe manner.
    Mr. Cooper. Admiral Richardson, you mentioned the 26 
percent increase for Navy nuclear. I think it is very important 
that people understand that in a time of tight budgets, it is 
not just automatic pilot, everybody frozen, but certain 
priorities need to be funded and processed. So I hope that we 
will be able to take into account needs wherever they arise, 
whether it is a Navy nuclear, whatever, because we can't just 
have a one-size-fits-all approach here.
    Admiral Richardson. Thank you, sir. And as I said in my 
opening statement, that increase does directly address those 
national strategic priorities, and we are committed to doing 
that in the most cost-effective but safe manner, safe and 
reliable manner as we go forward.
    Mr. Cooper. Mr. Held, we have a long way to go. I know it 
is progress for NNSA to be off the High Risk List, but still 
there are many, many other issues. I was interested in that 
small bit of bright news: Eleven nations have curtailed their 
nonproliferation risk of complete disposal of risky materials. 
Could you elaborate on that?
    Mr. Held. Eleven nations plus Taiwan have completely 
eliminated their special nuclear materials. They have no more 
special nuclear materials. The world is a much safer place as a 
result of that.
    Mr. Cooper. What percentage of the total problem is 11 
nations plus Taiwan?
    Mr. Held. I would need to take that for the record. Anne 
Harrington is here and might be able to provide more detail. I 
would not say that totally solves the whole problem, though. 
There--I would say that in the last 4 years, we have done an 
awful lot. There is an awful lot to do ahead of us, and our 
budget request for $1.6 billion is an awful lot of taxpayer 
money to do it with. We are looking for ways. As you say, you 
can't have a one-size-fits-all approach. You go from the NNSA 
budget, 26 percent increase for Admiral Richardson's budget to 
a 20 percent decrease on the nuclear proliferation side for 
Anne Harrington's budget. So that is, I think, indicative of 
some deep thought in what we were doing.
    [The information referred to can be found in the Appendix 
on page 159.]
    Mr. Held. We are taking a moment to step back and look at 
the synergies that we can find between nonproliferation and the 
weapons program, nonproliferation and civil nuclear energy 
programs.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes Mr. Brooks of Alabama for 5 
minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    General Harencak, when does our current force of Minuteman 
III ICBMs start aging out?
    General Harencak. Sir, we are tasked with the United States 
Air Force to maintain the Minuteman IIIs to 2030. Their ability 
to reach that will require certain improvements and 
modernization. So the answer to that question is we will 
maintain into 2030. They will be safe, secure, and effective to 
then, but in order to get us there, we are going to have to 
make some--going to have to make some choices as to what we 
would modernize, what we would replace.
    Mr. Brooks. What life extension programs are currently 
underway for these ICBMs in order to maximize their life 
expectancy?
    General Harencak. We are looking at upgrades, sir, for the 
propulsion. We are looking at upgrades in batteries, we are 
also working on an improvement program for the guidance 
systems. And, of course, we are about to complete the analysis 
of alternatives [AOA] on a follow-on ground-based strategic 
deterrent.
    Mr. Brooks. And do we have any plans or programs in place 
to replace the Minuteman III ICBM force as we reach their 
expected lifetime?
    General Harencak. Sir, right now, we are focused on 
sustaining it to 2030, but as I said, we are beginning the 
process to look at a potential follow-on, which is what the AOA 
for the ground-based strategic deterrent will do.
    Mr. Brooks. Do you have a judgment as to when the decision 
should be made for a replacement program, given that there is a 
lead time for the decision being made, the research and 
development being done, the manufacturing being done, and us 
actually having a replacement that we can put in?
    General Harencak. I believe, sir, the plan would be that we 
would be making those decisions in the early 2020s.
    Mr. Brooks. Thank you.
    And Admiral Benedict and General Harencak again, how do we 
support the industrial base for ICBM and submarine-launched 
ballistic missiles, particularly in solid rocket motors?
    Admiral Benedict. Yes, sir. So we currently have a very 
collaborative program working right now between the United 
States Navy and the United States Air Force. We have identified 
eight different technology areas that we are exchanging data, 
solid rocket motors being one of those eight, and we are 
working very closely with industry. If we can't use the exact 
same propellent, then our next mode of investigation is to find 
common constituents which can be mixed to a different 
formulation, which would address both Navy and Air Force needs. 
That is ongoing effort, sir.
    Mr. Brooks. General, do you have anything to add in that 
regard?
    General Harencak. Yes, sir. And the United States Air Force 
and United States Navy has embarked on a deep set of 
cooperation initiatives where we are going to be able to 
leverage both of our buys, if you will, whether they be in raw 
materials or completed components that I think will certainly 
provide some efficiencies but also help our industrial base.
    Mr. Brooks. This subcommittee has been informed that there 
is a low-rate production program in place for the D5 submarine-
launched ballistic missile program. Is a similar program in 
place for a Minuteman III and do we need low-rate production 
for the ICBM to sustain the industrial base or provide 
capabilities to the Air Force?
    General Harencak. Sir, the first--the answer is no; 
however, it is--we are definitely investigating it, and we will 
be able to make a more reasoned judgment on that as we get the 
AOA and as we start to make decisions on global--on the ground-
based strategic deterrent.
    Mr. Brooks. Why not? You said, ``No,'' but my follow-up is, 
why not?
    General Harencak. Again, sir, we are not--we are looking at 
how we are going to sustain this. We are also looking at the 
analysis of alternatives, which has not come back yet. It will 
come this summer. We will certainly be investigating should we 
begin a formal program for that, but we have not yet.
    Mr. Brooks. Admiral Benedict, do you have anything to add?
    Admiral Benedict. Sir, we are currently maintaining a low-
rate motor production program in support of the D5. Today the 
United States Navy is the only program that has strategic 
propulsion in production. I am maintaining a warm line at 12 
rocket motors per year, which is the minimum sustaining safe 
rate for solid rocket motor production of a size and type to 
support the United States Navy.
    Mr. Brooks. Thank you, Mr. Chairman.
    I yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes Mr. Langevin for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our panel for your testimony here today and 
the work you do on behalf of protecting the country.
    My first question will go to Ms. Bunn. So did--or Secretary 
Weber could also comment--but did opting not to do an 
environmental assessment of ICBM silos, as DOD had initially 
planned to do and as the Air Force General Counsel had 
concluded could be done, still enable the Secretary of Defense 
to provide all possible options to the President to make a 
determination on optimal nuclear force structure?
    Ms. Bunn. Congressman Langevin, there was a lot of 
information gathered over 2 years time. We would have liked to 
have had further information through an environmental 
assessment [EA] to have even more information, but the decision 
that was made was a good one that was supported by the 
Department of Defense broadly.
    Mr. Langevin. And to Admiral Benedict, in your military 
opinion, does reducing sub tubes as opposed to reducing silos 
provide the most survivable and stable deterrent?
    Admiral Benedict. Yes, sir. As Secretary Bunn said, we have 
participated extensively in the various analysis on force 
structure. I believe, in my professional opinion, that the 
decision is very much in concert with the course that has been 
set as we move towards the Ohio replacement program of 12 
submarines with 16 tubes. So the deactivation of four tubes on 
Ohio is very consistent with the long-range decision that has 
already been made by the Secretary of Defense and the 
administration.
    Mr. Langevin. Thank you.
    To the panel, given the concerns about Russian compliance 
with its arms control treaty obligations, should we stop U.S. 
nuclear reductions or any potential negotiations for further 
nuclear weapons reductions, and how does this impact the need 
for verification?
    Ms. Bunn. Congressman, we are pursuing the troublesome 
concerns we have about the INF treaty, Russian compliance with 
that, but that said, they are now abiding by New START 
provisions, and we see it as in our national interests to have 
the window on their--on what--their force structure and where 
they are headed through the inspections and verification 
measures. So we see it as in our interests to continue with the 
New START Treaty, as I said in my opening statement. Especially 
in times of turbulence elsewhere in the relationship, we want 
to keep that strategic nuclear relationship as stable as you 
can. Thank you, sir.
    Mr. Langevin. Thank you. Well, I would tend to agree, but I 
thought it was important to get the question out there, and I 
appreciate your answer.
    So, for Mr. Held, and I understand Ms. Harrington is 
available to answer questions as well, but I have to say, I am 
very concerned about the downward funding trend for key 
nonproliferation programs, and this includes the Global Threat 
Reduction Initiative [GTRI], which was reduced by 25 percent 
since last year and nearly 30 percent since fiscal year 2013, 
and defense--nuclear nonproliferation research and development 
[R&D], which was reduced by 10 percent since fiscal year 2014 
and 14 percent since fiscal year 2013, due to the, and I quote, 
the need to fund higher NNSA priorities within the broader 
security--during the broader budget austerity, according to the 
budget documents. Meanwhile the projections for the--in the 
fiscal year 2012 budget plan for steady increases.
    Now, while President Obama identified the prevention of 
nuclear proliferation and nuclear terrorism as the top priority 
identified in the Nuclear Posture Review and the nuclear 
employment guidance issue last year and was the focus of the 
latest nuclear security summit. So my question is, what were 
these high priorities? Why doesn't NNSA funding priorities 
match up to the President's priorities? And which would you 
have accomplished if R&D and GTRI had not been cut?
    Mr. Held. Sir, we are concerned as well for the reductions. 
The pain was--painful decisions had to be made within the caps 
of the Bipartisan Budget Act, and I think the broad spread of 
the increases and decreases is reflective of very serious 
consideration and balances of what we were trying to achieve. 
Over half of the reduction on the nonproliferation account is 
in the--is related to the MOX [mixed oxide] project in South 
Carolina, where cost overruns have presented us with a very 
difficult good government problem on how to proceed.
    In these other areas, however, some of the reductions are 
as a result of programs coming to a natural end at the end of 
the 4-year surge that the President announced in Prague 4 years 
ago. Some of them are admittedly painful. They are very 
valuable programs, and we need to protect them.
    As I said previously, though, $1.6 billion remains an awful 
lot of taxpayer money to spend on these issues, and we are 
looking for ways of driving synergies with other areas of the 
program to maximize the return to the taxpayer on these things.
    Mr. Langevin. I appreciate your answer. My time has 
expired. I would just say that the threats are not decreasing, 
clearly. I don't believe that NNSA priorities square with what 
President Obama has identified when he talks about prevention 
of nuclear proliferation and nuclear terrorism as a top 
priority. I am concerned that what I am seeing in this NNSA 
budget doesn't reflect that concern.
    So thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from South Carolina, 
Mr. Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank each of you for being here today. I 
appreciate your service. I have a special appreciation. I am an 
alumnus of the Department of Energy myself, and so I want to 
wish you well.
    And I do share the concerns of Mr. Langevin, particularly 
about nonproliferation. I am very concerned. And Mr. Held in 
particular, the administration's decision to place the Savannah 
River Site mixed oxide fuel fabrication facility, MOX, which 
transforms weapons-grade plutonium into green fuel; by placing 
this into cold standby, I believe it interrupts the 
environmental cleanup missions and disrupts the 
nonproliferation efforts.
    Last week you and Representative Marcy Kaptur from Ohio 
discussed the issue. Representative Kaptur cited a report from 
a January 16th paper published by former Russian negotiators of 
the initial U.S.-Russia plutonium disposition agreement back in 
the year 2000. As Representative Kaptur pointed out, the paper 
cited that if the Americans strayed from the current agreement 
regarding MOX, the Russians would have the ability to consider 
enrichment of their plutonium and would not place a priority on 
international monitors.
    As a concerned member of this committee, I believe we 
should have assurance from Russia that they will not seek this 
path before we even consider placing MOX into cold standby.
    Going back to the hearings last week, Secretary Moniz told 
Representative Mike Simpson that the Department was considering 
four alternatives to MOX. However, he noted, that only two were 
less expensive than MOX. It is my understanding that these 
alternatives would require in addition to--in addition to 
renegotiations with the Russians, a change in the Nuclear Waste 
Policy Act for the State of New Mexico to receive the material.
    Have you reviewed this plutonium placement in New Mexico 
with the State of New Mexico and its delegation? What is the 
opinion of the leadership of New Mexico?
    Mr. Held. Thank you, sir. First, the world will be a much 
safer place if both the United States and Russia dispose of 34 
metric tons of weapons-grade uranium. Very simply, the world 
will be a safer place, and the Secretary is committed to that 
mission. In terms of the agreement with the Russians, the 
original agreement in 2000 had us actually both committed to 
pretty much the use of the MOX technology to get rid of the--to 
dispose of the plutonium. At Russian request, we revised the 
agreement in 2010 to allow them to use a fast reactor rather 
than the MOX approach. So there is a precedent for revising the 
agreement should we have a need to do so. And we have not had 
formal discussions with the Russians on this matter, but we 
have had informal discussions, before the Crimea incident, I 
must say. And there was an indication, a businesslike 
indication that they would be prepared to talk about these 
things if a need arose to do so. So it really comes down onto 
the question of--a good government question of how do we do 
this? What is the best way?
    And the GAO issued a very good report recently on MOX that 
really kind of made--pointed out the serious mistake was made 
in 2007, when we rushed to construction before we had a design. 
That was not a smart thing to do. And we support GAO's call for 
a really deep look in why we made that decision. So the 
question is how do we best address this mission focus? We have 
sunk $5 billion into the MOX project already. The assessment is 
that we have got $25 billion more to go in full life-cycle 
costs. So the good government decision, is there a way to 
achieve this mission that costs less than $25 billion?
    John MacWilliams, who is a former investment banker that 
Secretary Moniz brought in, has done very, very thorough and 
very clear-eyed look at this. And we do believe that there are 
options that are significantly cheaper. I think we owe it to 
the committee to get you that report as soon as we possibly can 
so that we can all together make a very good government 
decision. One of the options could still be the MOX project, 
though, if we can work with the M&O contractor and drive down 
the price of actually making. The real question is, what is the 
smartest way that is cheaper than $25 billion?
    Mr. Wilson. Well, I would tell you that indeed the facility 
is 62 percent completed. I believe--and not to be critical, 
NNSA, the contractor, you should be working together, because 
this can be done. The alternative is truly putting our country 
at risk, I believe, in having weapons-grade plutonium either in 
South Carolina or in New Mexico. And it just doesn't need to be 
done. And I truly hope you will look at the numbers. Because 
additional facts have come out that, indeed, yes, life-cycle, 
the whole facility, but the result of creating fuel offsets 
truly so much of the cost. And again, this is not to be 
adversarial. I want to work with you. Thank you very much.
    Mr. Held. This is really a good government decision. So we 
appreciate that. It is a really hard decision, and we really 
owe it to you to get you that report so we can actually have 
this conversation in a clear way.
    Mr. Wilson. Well, nuclear cleanup is just so important. So, 
please, thank you.
    Mr. Held. Yes, sir.
    Mr. Rogers. I thank the gentleman. His time has expired.
    The chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    I am going to continue on this discussion about the MOX 
facility.
    Mr. Held, you mentioned Russia wants to consider a fast 
reactor. Could you talk about that more? Do you have more 
information about the type of reactor they are talking of 
using?
    Mr. Held. That is probably, sir--I am a retired CIA 
[Central Intelligence Agency] operations officer, used to being 
in dark alleys more than on highly technical things. So I can 
get you an answer, a very detailed technical answer.
    [The information referred to can be found in the Appendix 
on page 159.]
    Mr. Garamendi. My understanding is they are interested in 
the PRISM reactor, and Mr. Belikov has recently met to discuss 
that issue. That is not a CIA issue, but that is an open source 
issue.
    Mr. Held. That is my understanding, sir, but the technical 
aspects of that are probably beyond my competency.
    Mr. Garamendi. This is your wheelhouse. This is your issue.
    Mr. Held. Yes, sir.
    Mr. Garamendi. I am not interested in hearing you say you 
don't have the technical expertise to discuss this matter, 
because you are one of the primary decisionmakers, are you not?
    Mr. Held. Yes, sir, I am the acting administrator, and I am 
proud of it, sir.
    Mr. Garamendi. When will you acquire the technical 
expertise on this matter?
    Mr. Held. The NNSA has that technical expertise today, sir.
    Mr. Garamendi. Apparently, they didn't bother to brief the 
acting administrator. Enough said. Let's move on.
    Mr. Held. Okay, sir.
    Mr. Garamendi. Do the pits and secondaries that we hold in 
reserve, are they part of the hedge for our nuclear deterrent, 
Mr. Held?
    Mr. Held. One of the main reasons, sir, that we are moving 
to interoperable warheads is so that we can actually reduce the 
size of the hedge. The 3+2 strategy allows us to maintain a 
safe, secure, and reliable deterrent based on a smaller 
deterrent.
    Mr. Garamendi. I know all that. My question goes directly 
to the pits and secondaries.
    Mr. Held. And that goes to the design of the pits and 
secondaries.
    Mr. Garamendi. Are they part of the hedge?
    Mr. Held. Yes, sir, in terms of they are part of the 
interoperable warheads.
    Mr. Garamendi. And I would appreciate a detailed, detailed 
reply to my question concerning Russia's apparent interest in 
the PRISM reactor.
    Mr. Held. They are--yes, sir, we will get you that. They, 
based on the 2010 agreement, they are pursuing the fast 
reactor.
    Mr. Garamendi. The other question has to do in your 
testimony, you talked about four different proposals that are 
being investigated by NNSA.
    Mr. Held. Yes, sir.
    Mr. Garamendi. But the disposition, the MOX, the one you 
said, reactors, and a nonreactor approach. What is the 
nonreactor approach that you are looking at?
    Mr. Held. The nonreactor approach would be dilution and 
then storage in a geographic repository.
    Mr. Garamendi. Very good. I would appreciate more detail on 
all four of those proposals that you are looking at.
    Mr. Held. I think the--report will get you that.
    Mr. Garamendi. What is the timeframe for that report?
    Mr. Held. We are hoping to get it out next week, sir.
    Mr. Garamendi. I am sorry, when?
    Mr. Held. We are hoping to get it out next week.
    Mr. Garamendi. Good. I will await that.
    My next question goes to Ms. Bunn. Is the DOD planning to 
reevaluate the number of B61s that would have to undergo life 
extension? And was that analysis--what was the analysis that 
determined the number of B61s required?
    Ms. Bunn. Sir, I don't know of any reevaluation going on. I 
would defer to my colleague, who is the executive director----
    Mr. Garamendi. Then let's refer to Mr. Weber.
    Secretary Weber. The B61 mod 12 will be used both for the 
dual-capable aircraft in Europe in support of our NATO 
commitments, as well as on the B-2 strategic bomber. So as we 
go into production in early 2020, the total quantity of 
production is something that will be determined in----
    Mr. Garamendi. The current budget for the B61 life 
extension----
    Secretary Weber. Yes.
    Mr. Garamendi [continuing]. Presumably is based upon some 
number of B61 bombs that will be extended. Is that true?
    Secretary Weber. Yes. It is based on the current 
requirements, which are a combination of the Strategic Command 
requirement and the requirement for Europe. But that doesn't 
mean that it wouldn't be reviewed between now and the start of 
production in 2020.
    Mr. Garamendi. So sometime between now and 2020, which is 
what, 6 years, 7 years from now, you will have an analysis 
about how many we are actually going to rebuild?
    Secretary Weber. Yes.
    Mr. Garamendi. That is particularly unuseful. Excuse me. 
You have a plan today to rebuild a certain number of bombs 
which, as I understand, is a classified number.
    Secretary Weber. The stockpile management plan, which has 
those numbers, and the Nuclear Weapons Stockpile Memorandum 
[NWSM], which has those numbers, have been provided to 
Congress. But they are certainly subject to change as our 
nuclear posture evolves.
    Mr. Garamendi. So we are headed down a path of rebuilding 
B61 bombs at a certain pace, certain number, based upon an 
analysis that was done when?
    Secretary Weber. It is a current analysis, but it is 
subject to review on an annual basis.
    Mr. Garamendi. So it is not 2020 that we will have the next 
review. It will be annually.
    Secretary Weber. Yes.
    Mr. Garamendi. Thank you. Mr. Chairman, I am out of time. I 
yield back.
    Mr. Rogers. The gentleman's time has expired.
    The chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I also thank the gentleman from Arizona for yielding.
    Ms. Bunn, last week the New York Times reported in an 
interview that General Breedlove, commander of European Command 
and NATO Supreme Allied Commander, described Russia's 
development of a cruise missile with a range prohibited by the 
Intermediate Nuclear Forces [INF] Treaty as a, quote, 
``militarily significant development,'' unquote. He elaborated, 
``A weapons capability that violates the INF that is introduced 
into the greater European land mass is absolutely a tool that 
will have to be dealt with. It can't go unanswered.'' So our 
general responsible for prosecuting any potential conflict in 
Europe is saying this changes the military calculus. Has your 
office, OSD [Office of the Secretary of Defense] Policy, 
provided guidance to General Breedlove on this apparent 
violation of INF on how to adjust defense postures, what to say 
to NATO allies, and what the policy implications there are for 
further arms control with Russia?
    Ms. Bunn. Congressman Lamborn, the U.S. and NATO are 
reviewing a lot of policies right now in the face of what 
Russia did in Ukraine, and in the face of INF compliance 
concerns. I don't want to get out ahead of our NATO allies in 
an open session. Be happy to come and talk with you about that.
    Mr. Lamborn. Okay. So we can talk further a classified 
setting on what the guidance is that you are giving General 
Breedlove, our NATO Allied Supreme Commander.
    Ms. Bunn. We are assessing now. That is where we are in the 
last--that is where we are on this issue.
    Mr. Lamborn. Well, I understand how the Crimean 
developments have given a new urgency to this, but we have 
known about the INF treaties for a period of time. So I mean I 
guess I would hope we would be farther along than just still 
assessing. And as a follow-up, the Quadrennial Defense Review 
[QDR] states, quote, ``We,'' that is the U.S., ``will pursue 
further negotiated reductions with Russia,'' unquote. Given 
what we just talked about with Crimea and all those 
developments, does DOD still support new negotiations with 
Russia to reduce U.S. nuclear forces?
    Ms. Bunn. Congressman, the Russians have shown no interest 
in further reductions. And I think given where we are with 
Ukraine, we don't have military to military or civilian--we 
don't have contacts on these kinds of issues now for further 
reductions.
    Mr. Lamborn. Okay. Well, I am glad to hear that that's the 
status at the moment. But the QDR was drafted some, you know, 
some months ago. And at that time, those who drafted it said, 
yeah, let's continue further reducing nuclear forces, including 
U.S. weapons, with the Russians. So--what were you going to 
say?
    Ms. Bunn. I was going to say that the President last June, 
when he put out his nuclear weapons employment guidance, after 
several years of study and assessment with all of DOD, the 
combatant commanders and so forth, assessed that we could, we 
could in our own national interest, we could reduce by up to a 
third our deployed nuclear weapons. However, we wanted to 
pursue that in negotiations with the Russians, not do it 
unilaterally. As I say, I don't see negotiations on that 
occurring any time soon.
    Mr. Lamborn. Did the President know about the Russian 
cheating at that time?
    Ms. Bunn. This is, as you know from classified hearings 
that have been held in this very room with this subcommittee 
and others, it is very hard for me to go into much detail on 
this issue. Thank you.
    Mr. Lamborn. I guess I will just make a comment. I don't 
see how we can be considering a third reduction, a one-third 
reduction of U.S. nuclear forces with someone like Russia, even 
before Crimea. I mean, Crimea is the icing on the cake. But 
even before that, with the INF cheating, I would think that 
that should have been a nonstarter. Is there anyone in the 
administration that is contemplating unilateral U.S. nuclear 
force reductions?
    Ms. Bunn. Not that I have talked with, no, sir.
    Mr. Lamborn. Okay. I am glad to hear that. Thank you so 
much.
    Mr. Chairman, I yield back.
    Mr. Rogers. The chair will recognize Mr. Nugent from 
Florida.
    Mr. Nugent. Thank you, Mr. Chairman. And I want to thank 
our panel for being here today. A lot of questions, obviously. 
You can see the frustration on Members up here in regards to 
getting I guess some specific answers. And Mr. Garamendi is 
certainly one of those that obviously has shown some 
frustration.
    Your response, though, to Congressman Lamborn as regards to 
the guidance given to General Breedlove. I mean, it was his 
comment, open-source comment, reference to the fact that there 
was a game changer in regards to the INF, what he believes is 
an INF violation, particularly as it relates to the weapon 
that--the cruise missile that was designed by the Russians. I 
mean, what direction do we give him? I mean, is it like, don't 
worry about it; we are going to handle this? We are going to 
staff it; we are going to do whatever? I am just a little 
concerned about where he feels he is. Because right now, he is 
between a rock and a hard spot with everything that is going on 
in Ukraine.
    Ms. Bunn. General Breedlove has a very hard job at this 
moment, Congressman.
    Mr. Nugent. He does.
    Ms. Bunn. He really does. In fact, I was in a meeting with 
him just about a week and a half ago. There are, again, when--
it is very hard to address this issue in open session. When 
there are--when there are threats that are unexpected, you have 
to figure out what options there are for dealing with them when 
they arrive--before they arrive. There are a lot of options for 
doing this.
    Mr. Nugent. Let me ask you this. Have we confronted the 
Russians about that possible treaty violation?
    Ms. Bunn. Yes, sir. We have. Yes. A number of times. We 
have raised it with them. We were not satisfied with their 
answer. We said, we will keep pressing them on this. It has 
been raised at a number of levels.
    Mr. Nugent. I don't think Putin really cares that we care. 
So, you know, I don't know where you go from there. I mean, I 
am new at this myself, so I am not sure. We will get off that 
subject.
    But Admiral Benedict, the Ohio-class replacement, 
particularly it is probably one of the strongest--nothing 
against the other aspects of our nuclear deterrent, but it 
certainly is one that is most survivable. And the Navy's 
Strategic Command and Department of Defense have all been very 
clear that they believe there is a 12-boat minimum in regards 
to that. Am I clear that we are actually not going to build 12 
boats? That has been discussed or is not.
    Admiral Benedict. No, sir, the current program of record is 
to procure 12 boats.
    Mr. Nugent. Within what time period?
    Admiral Benedict. First boat commences construction in 
2021, delivers in order to support a 2031, and then follows out 
from there. But the program of record is a 12-boat program.
    Mr. Nugent. Is for 12 boats?
    Admiral Benedict. Yes, sir.
    Mr. Nugent. Evidently, the information we had was 
incorrect. Because obviously, I believe that is a huge hedge as 
we move forward in regards to our nuclear deterrence. And I 
hate to go to the Air Force, having been prior Air Force, but, 
you know, we certainly have had a lot in the press in regards 
to the Air Force and our readiness, at least our training 
aspect of our readiness. What can you do to assure me that we 
are okay, that we have got--whatever the culture issue is going 
on within the Air Force has been corrected. Because we don't 
hear the same issues, you know, coming from the Navy. So I 
would certainly like to hear your take on that.
    General Harencak. Yes, sir. As this unfortunate breach of 
integrity of a small number of our officers occurred at 
Malmstrom, we promised in the Air Force that we were going to 
aggressively investigate it. And we did that extensively. We 
said we were going to hold anybody found accountable to it, and 
we have certainly done that. But most importantly, what we said 
is we would get to the root cause, what we believe to be the 
root cause and that we would begin a force improvement plan 
that would address some of the issues that we believe were 
causal.
    Mr. Nugent. What do you think the number one issue was?
    General Harencak. Well, number one issue was, of course, 
the lack of integrity and the belief that there was a--it was 
necessary for these young officers to score a hundred percent 
on a test that they could reliably score a passing grade on. So 
we have embarked on a very aggressive campaign to assess, fix, 
and make sure that we permanently address this particular 
cultural issue of missileers that they had to have a complete 
and absolute zero defect. We believe, and we have shown for 
many, many, many decades, that our safe, secure, and effective 
stockpile of the two legs of the triad that we do is 
accomplished with a mission of zero defects. However, however, 
somewhere in there it was translated to these young officers 
they had to have zero defects, that they could not make any 
mistakes. We have addressed that, and we are going to 
continuously improve and work on that particular issue.
    Mr. Nugent. I appreciate that.
    And my time has expired. I yield back.
    Mr. Rogers. I thank the gentleman.
    General Harencak, haven't you all gone to a pass-fail now 
instead of 100 percent?
    General Harencak. That is one issue, but there is many more 
that are going to address, what we believe, to do a blurring of 
the lines between training and evaluation. We believe in that 
particular career field it was all evaluation and very little 
training.
    Mr. Rogers. Okay.
    The chair now recognizes Mr. Bridenstine for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Held, on March 24, Chairman Turner and I sent you a 
letter describing concerns with NNSA providing multiple 
integrated laser engagement systems, or MILES, to Russia. MILES 
is a force-on-force trainer, basically a high-tech laser tag 
system. And given Russia's invasion of Ukraine and occupation 
of Crimea, Mr. Turner and I believe that sending laser tag 
systems to Russia free of charge is wildly inappropriate. I 
have your response letter here, and I appreciate your very 
quick response. And I certainly appreciate your promise to 
cancel the MILES request. Very positive. And thank you for 
that.
    However, there are some additional questions that your 
letter opened up. Despite canceling MILES, your agency is 
apparently still requesting $100 million for nonproliferation 
programs in Russia. And from our perspective, from my 
perspective, I will speak for myself, giving Moscow 
nonproliferation money, by doing that, we inadvertently 
subsidize Russia's nuclear force modernization. While our 
nuclear arsenal is atrophying, Russia continues to develop new 
ICBMs. They are constructing new ballistic missile submarines. 
They are developing new strategic bombers, among other nuclear 
modernization efforts. Clearly, if Moscow has money to spend on 
its own nuclear forces, then it is quite capable of fulfilling 
its nonproliferation obligations without relying on the U.S. 
taxpayer. Russia reportedly completed a massive nuclear 
exercise last week. This exercise practiced offensive 
operations involving the simultaneous use of nuclear missiles 
in a bid to intimidate its neighbors. These are all open-source 
reports.
    Mr. Held, we have a country that is modernizing its nuclear 
forces and exercising offensive strikes. We have a country that 
has invaded two of its neighbors, currently occupying South 
Ossetia and Abkhazia, and now Crimea. And so my question is 
doesn't this $100 million that you are still requesting 
directly contradict and undermine the Obama administration's 
stated policy of suspending military-to-military engagement 
with Russia?
    Mr. Held. Thank you, sir. Thank you for your letter. And we 
were happy to promptly positively respond to that letter. In 
this situation, it most certainly would have been 
inappropriate. There is, even during the Cold War, which I 
spent most of my career in, there was a long tradition of 
keeping nuclear security and arms control issues, we tried as 
much as possible to keep those buffered from the ups and downs 
of the overall strategic relationships. That is in our national 
interest as well as the Russians' national interest.
    As you can imagine, in the current situation, the Secretary 
has issued guidance to we need to be very careful in reviewing 
all of these programs to assure that any money that we are 
spending over there is driven by U.S. national security 
interests, not Russian. And it is a very fluid situation.
    Mr. Bridenstine. Let me interrupt. I have only got a minute 
30 left. Are you aware today there are news reports indicating 
that your deputy at NNSA, Anne Harrington, who is here today, 
stated that the U.S. is curtailing cooperative threat reduction 
with Russia?
    Mr. Held. I am aware of the news reports. The news reports 
were from Russia, and they were inaccurate. That is not what 
she said, according to the transcript of the meeting.
    Mr. Bridenstine. That is good to hear, that those are 
inaccurate reports.
    Mr. Held. Yes, sir.
    Mr. Bridenstine. Okay.
    Mr. Chairman, I appreciate that. I yield back.
    Mr. Rogers. Great. I thank the gentleman.
    Mr. Weber, the Nuclear Weapons Council, something we talked 
about in my office also, had to certify the fiscal year 2014 
and 2015 budget for NNSA. Is the council satisfied with the 
NNSA's work in trying to achieve those efficiencies?
    Secretary Weber. Mr. Chairman, we were able--all of the 
members of the Nuclear Weapons Council were able to certify the 
budget. But in doing so, we recognize that there is risk. We 
were able to preserve the highest priorities, but we had to 
slip some programs, including the interoperable warhead one, 
the Long-range Stand-off Missile [LRSO]. And what is most 
important is that we go back to a situation where we can have 
long-term certainty and stable funding. And with sequestration 
hanging over our heads in 2016, that puts a lot of stress on 
the priorities of the Nuclear Weapons Council.
    Mr. Rogers. So is DOD satisfied with NNSA and their effort 
on these efficiencies?
    Secretary Weber. We continue to work with our partners in 
NNSA to identify additional efficiencies and to keep that focus 
on delivering the life extension programs for our nuclear 
weapons. And I agree strongly with Acting Administrator Bruce 
Held that the tone of our partnership is very good at the 
leadership level. We talk frequently and in a very civilized 
manner. These are common problems that we have to work on 
together.
    Mr. Rogers. So is DOD satisfied with their progress on 
these efficiencies? I know you want to keep a positive tone, 
but it is either yes or no.
    Secretary Weber. We have made progress.
    Mr. Rogers. Make it a positive yes or no.
    Secretary Weber. We are not fully satisfied, and believe 
there are more opportunities for increased efficiencies.
    Mr. Rogers. That is a very positive no.
    Mr. Held, are you satisfied--never mind. What efficiencies 
specifically are you going after in fiscal year 2015, and how 
much do you think you will be able to save?
    Mr. Held. Yes, sir. They are, on pure management 
efficiencies--there are two streams, management efficiencies 
and workforce prioritization. That is part of the CAPE study. 
On the management efficiencies, our target for fiscal year 2014 
was $80 million. Our target for fiscal year 2015 is $163 
million. And the target across the FYNSP [Future Years Nuclear 
Security Plan] is $1.3 billion. For fiscal year 2014, we will 
not only meet, we will beat the $80 million target. For fiscal 
year 2015, we look like we are not only going to meet, but we 
look like we will beat it. And so now we are actually 
projecting out to the fiscal year 2016 efficiencies. So those 
are real efficiencies, where we are getting mission 
effectiveness at greater cost-effectiveness--cost-efficiency.
    On the workforce prioritization, however, this is where we 
have a little bit of a difference, is essentially the argument 
of the workforce prioritization is--and that is $1.5 billion 
over the 5-year FYNSP. What that calls for is a 25 percent 
shift of the workforce from what would be--what was classed as 
lower priority work to higher priority work. And so what we 
did, NNSA did two studies, one internal, one external. And 
really what that involves is shifting workforce from 
certification of the stockpile and dismantlement to life 
extension programs. Sir, we don't believe that is a simple 
budgetary exercise. We think that is a major policy decision. 
And so to the extent that there is a collegial debate, it goes 
to that question. But let me assure you, back to the original 
thing, in terms of continuous improvement, we are committed to 
that.
    Mr. Rogers. Will you get those specifics reduced to writing 
and submit them?
    Mr. Held. You bet. You bet.
    [The information referred to can be found in the Appendix 
on page 159.]
    Mr. Rogers. Great.
    And finally, Dr. Winokur, Congress has been trying to get 
your organization an inspector general for over 2 years now. I 
understand that you met with leaders of the Nuclear Regulatory 
Commission's Inspector General [IG] yesterday. And I also heard 
that the IG and you disagree on how it should carry out its 
work. My question is will you assure this subcommittee that you 
and your organization will fully cooperate with the IG and 
provide the information, access, and resources the IG needs to 
carry out its job?
    Dr. Winokur. Mr. Chairman, the Board did meet with the 
inspector general yesterday. I think it was a very productive 
meeting. The inspector general will brief at an all-hands 
meeting all the Board staff on Friday. And I can assure you 
that the Board and the inspector general will work together 
effectively and efficiently. I don't see any disagreements at 
this time between the Board and the inspector general. I have 
heard that there was some of these discussions on the Hill. 
Quite frankly, sir, I don't believe there is any validity to 
any of those comments. The Board and the inspector general will 
work together effectively. We understand their role very well. 
And we are very confident we will be able to work with them.
    Mr. Rogers. That is the correct answer.
    Dr. Winokur. And you have my assurance.
    Mr. Rogers. All right. Thank you, sir.
    The chair now recognizes the ranking member for any further 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    A question on nonproliferation. The Defense Science Board 
in January issued a report that had a number of very disturbing 
sentences in it. Let me read two. ``In short, for the first 
time since the early decades of the nuclear era, the Nation 
needs to be equally concerned about both vertical proliferation 
and horizontal proliferation. These factors and others more 
fully discussed in the report led the task force to observe 
that monitoring for proliferation should be a top national 
security objective, but one for which the Nation is not yet 
organized or fully equipped to address.'' To any of the 
panelists, what should we be doing about this to meet the 
warning of the Defense Science Board?
    Mr. Held. Sir, I think, if I may initially, I think we 
would agree with the Defense Science Board. I think we need 
to--and it is part of our budgetary process--we need to step 
back and see what is the strategic path ahead of us on these 
issues. We have asked--or one of the committees has asked GAO 
to look into this as well, which we are really looking forward 
to helping that. And the Secretary has asked the Secretary of 
Energy Advisory Board to look into these things as well.
    What is the right strategic path? We have had success over 
the past 4 years. We are in a different budgetary environment. 
We are in a different strategic environment. What is the good 
strategy, the right strategy? Do we need to tweak it? And how 
do we need to proceed? We do not know the answers to that right 
at the moment, but we do agree with the need to ask the 
questions, though.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank all of you for being here. Always grateful to the 
people that are out trying to look out for the best interests 
of freedom, and especially the United States.
    Ms. Bunn, last week, the New York Times reported that 
General Breedlove, our Supreme Allied Commander, a great man, 
in my estimation, described Russia's violation of the INF 
treaty as a, quote, ``military significant development.'' He 
elaborated, he said, ``A weapons capability that violates the 
INF that is introduced into the greater European land mass is 
absolutely a tool that will have to be dealt with. It cannot go 
unanswered,'' close quote.
    So this, again, the Supreme Allied Commander responsible 
for prosecuting any conflict or potential conflict in Europe is 
saying that this changes his military calculus. So my question 
is, has your office or OSD Policy provided guidance to General 
Breedlove on this potential violation of the INF and on how to 
adjust defense postures, what to say to NATO allies, and what 
the policy implications are for further arms control with 
Russia?
    Ms. Bunn. Congressman Franks, General Breedlove is a very 
good general. I would agree with you there. A lot of respect 
for him. Our careers have passed many times. He is dealing with 
a lot of tough problems right now. As we discussed a few 
minutes ago, we are looking at a lot of options with regard to 
Russia. If there were, if they deployed something like you 
described, we would have to--there are some things we would 
need to do. There is assessment going on right now in the U.S. 
Government. And that is, as I said before, that is about as far 
as I would feel comfortable going in open session.
    Mr. Franks. I understand. General Breedlove is someone I 
have a lot of personal gratitude and affection for. He actually 
took me up in an F-16 and did a 360 over the Goldwater Range. 
And you got to really trust a guy to do that.
    Admiral Richardson, it was certainly great meeting you last 
year and hearing about the significance of your mission. Could 
you describe to us the impacts to the Naval Reactors program 
after the cuts that you took in fiscal year 2014 from the 
levels that you requested? How have you tried to mitigate those 
effects--the effects of those cuts I should say? And what are 
the costs and schedule impacts to the Navy if the spent fuel 
handling facility project is not funded appropriately in fiscal 
year 2015?
    Admiral Richardson. Sir, thank you for that question. I 
will start with the spent fuel handling facility, if I could. 
That was one of the areas where our appropriation was below our 
request by about $50 million. And additionally, we did not get 
the new start authority. So that project was put on hold, 
delaying another year of funding and 2 years in execution. And 
to put simply, it is costing the country more to delay this 
facility than it is to just get on with building it. So, for 
instance, last year, it was a $50 million decrease between our 
request and our appropriation. That is going to cost about $300 
million to $350 million to recover. Each year that we delay 
this is another $100 million to $150 million to the Nation. 
That cost is spent on constructing temporary storage containers 
for the spent nuclear fuel that comes off of aircraft carriers. 
That fuel is--those aircraft carriers are being refueled on a 
heel-to-toe basis down in Virginia. We feel it is a national 
strategic priority to get those carriers turned around and back 
to sea as quickly as possible. And so to accommodate that fuel, 
we are building temporary storage containers until we can get 
that facility online. And so appreciate very much this 
subcommittee's support for our work there to build that new 
facility.
    With respect to the other cuts from the 2014 request, about 
$100 million was applied to my operating and infrastructure 
budget. It is a 23 percent funding cut. That is the budget I 
use to basically maintain and operate my labs, my technical 
support base. By virtue of the cuts of that year, two major 
concerns that I have right now. One is that by virtue of that 
funding cut, we were unable to purchase a high performance 
computer. That computer was going to be applied to progress the 
design for the Ohio replacement class submarine reactor plant. 
As I stand right now, I am 6 months behind in that by virtue of 
being unable to purchase that computer. I can most likely 
recover that if I am funded in 2015. And so that is my 
mitigation. I will reprioritize work. That is a national 
strategic priority, our number one priority as well. And I can 
do that. But it comes at a cost to that other work.
    Additionally, there was only sufficient funding to perform 
required maintenance to one of my two training and research 
reactors in New York. And so we had to commit to one or the 
other. Pending any relief, I am going to have to shut down one 
of the training reactors as fiscal year 2015 starts. That will 
result in, at minimum, 450 operators that will not be trained 
and sent to the fleet, incurring additional stress on the 
operating force out there. And then that number only goes up 
until I can secure that funding and get back on track, sir.
    Mr. Franks. Thank you.
    And thank you, Mr. Chairman, very much.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes Mr. Garamendi for 5 minutes.
    Mr. Garamendi. Mr. Chairman, thank you for this hearing. 
This is really important. And I really appreciate it. There is 
about 20 hours of questions that I have, but I will take my 
remaining 3 minutes--4 minutes and 15 seconds.
    Admiral, you were just talking about the spent fuel at your 
facility and about some method of disposing of it. Could you 
just expand on that quickly and tell us how you propose to 
permanently dispose of the spent nuclear fuel from the Naval 
Reactors?
    Admiral Richardson. Sir, I will just describe our process 
up there. So we take our spent fuel from both our submarines 
and our aircraft carriers. We process it off the ships at the 
shipyards where they come in. All of that spent fuel gets sent 
to my Naval Reactors facility in eastern Idaho, on the Idaho 
National Lab. That fuel is processed through a pool where we 
store the fuel until it can then be safely taken out of that 
pool and placed into dry storage. And that is currently how we 
process it right now, sir.
    Mr. Garamendi. You said the dry storage remains the 
permanent disposal?
    Admiral Richardson. Well, right now, pending a national 
repository, we maintain that fuel in dry storage at our site in 
Idaho.
    Mr. Garamendi. Have you ever heard of the IFR program?
    Admiral Richardson. No, sir.
    Mr. Garamendi. Integral Fast Reactor.
    Admiral Richardson. I have heard of it, but I am not 
conversant on it.
    Mr. Garamendi. You realize we spent $10 billion figuring 
out how to dispose of this stuff, and figured it out, and then 
mothballed it? Are you aware of that?
    Admiral Richardson. I am not.
    Mr. Garamendi. Are you any of you aware of this? Question. 
All of you. Integral Fast Reactor. Oh, my God. Okay. We got a 
problem, gentlemen and lady.
    Next time you are here I am going to ask you the same 
question, have you ever heard of the IFR, the Integral Fast 
Reactor? And I hope to have an answer that ``I have heard of 
it, and I know exactly what it is.'' It is a fast reactor that 
was specifically designed by the United States Government to 
dispose of the highly enriched--excuse me--of the spent nuclear 
fuels from all of your programs. And it worked. It operated for 
some 10 years--actually, longer than that. But I am not going 
to go into a lesson here, but I expect you to know about it the 
next time you come before this committee.
    It also happens to be the PRISM reactor that is being 
discussed in Moscow and in the United Kingdom to dispose of 
their plutonium.
    A couple of other questions.
    Excuse me, that was shocking.
    Dr. Winokur, what are the top concerns that you have not 
yet expressed to this committee about the safety of the nuclear 
enterprise?
    Dr. Winokur. Well, I think the top concerns from my 
perspective right now is this gap between this aging 
infrastructure, which is 50, 60, 70 years old, that requires a 
lot of oversight and care, and we have to monitor and finally 
determine when it can continue to operate in a safe and 
reliable fashion and when new replacement facilities or 
alternative strategies for plutonium and uranium are going to 
come online. That gap is becoming increasingly a concern.
    Another area where I have concerns, as I said before, 
formality of operations. The Board wrote a recommendation on 
safety culture. I think formality of operations is one of the 
better measures of safety culture. And we don't right now see--
we see some improvements by the Department, but a lot more has 
to happen in the operational space to have confidence. One area 
to me, Congressman, that is incredibly important is contractor 
assurance systems. In the final analysis, the contractors have 
to be able to get the job done. There are a lot more of them. I 
mean, there is always going to be a need for Federal oversight 
and the Board's independent oversight. But the contractors have 
to get the job done. These contractor assurance systems, in my 
opinion, are not improving, not maturing the way they need to. 
And they have to in the long run. The government has to depend 
upon those contractors. There will be oversight, but that has 
to happen.
    And then, finally, the thing I am concerned about is the 
fact that accidents do happen. And we really do need to learn 
better lessons from Fukushima. I still think there is a sense 
in the complex that these accidents won't happen. But I think 
the job of the Board and the job of the Department is to make 
sure they are prepared for what I always refer to as the low-
probability, high-consequence accident. How to be ready for 
that. It can happen. It will happen. And these sites are very, 
very complicated. And there are many different facilities and 
many different operations, and a lot of things can go wrong. So 
it is going to require a lot of drilling, a lot of planning, 
and a lot of coordination.
    Mr. Garamendi. You are talking here specifically about the 
military reactors, military programs, not the commercial. Or 
are you talking about both?
    Dr. Winokur. No, I am talking about the defense nuclear 
facilities under the jurisdiction of the Board, not commercial.
    Mr. Garamendi. Yield back.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes Mr. Bridenstine for any more 
questions he might have.
    Mr. Bridenstine. Yes. Mr. Held, I just wanted to follow up 
with the question I asked earlier about the $100 million for 
nonproliferation programs. All of us believe in 
nonproliferation. I wanted to get insight. When we talk about, 
you know, basically subsidizing, if you will, Russian military 
modernization, especially nuclear modernization, ICBMs, 
strategic bombers, ballistic missile submarines, when we talk 
about what they are doing within their nuclear modernization 
programs, including violating the INF, and while they are doing 
this, we are in essence subsidizing the security of their 
current nuclear capabilities, at some point, we as Americans 
have to make a decision that we are subsidizing their nuclear 
modernization program, and we got to stop spending it.
    I am going to ask Chairman Rogers that when we do the mark 
that we really look hard at this $100 million that it seems 
your agency is requesting. I was wondering if you could give us 
your insight as to at what point do we make a decision that we 
are inappropriately subsidizing Russian nuclear modernization?
    Mr. Held. So thank you for the question. Very important 
question. Things have changed pretty considerably since we 
built this budget request. And so I think we need to look at 
this in a very clear-eyed fashion. We welcome the committee's 
interest in this, and welcome dialogue on this. I would suggest 
that we are in the business of U.S. national security, not in 
subsidizing the Russians one way or the other. Our 
responsibility, the responsibility of everybody at this table, 
and yours as well, is U.S. national security. And so if that 
money is judged not to be serving those interests, then we 
shouldn't pursue it. And I look forward to talking to you about 
this issue over the time. It is a very fluid situation.
    Mr. Bridenstine. Thank you, Mr. Held.
    Mr. Chairman, I yield back.
    Mr. Rogers. Thank the gentleman.
    I thank the witnesses. A very productive hearing. And I do 
thank all of you for your service to our country. And I 
appreciate your preparing for this hearing and making yourself 
available. I would remind you that the record will be left open 
for 10 days.
    If any Members who could not make it to the hearing have 
questions, or those who are here just couldn't get their 
questions in and they submit them to you, I would ask you to 
provide a response in a timely manner.
    And with that, this hearing is adjourned.
    [Whereupon, at 5:15 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                             April 8, 2014

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 8, 2014

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
  

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 8, 2014

=======================================================================
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
     
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 8, 2014

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Held. NNSA assigned a new Federal Project Director to the 
project in May 2012. Shortly after he came on board, he identified the 
space-fit issue to the Departmental leadership and the Department 
immediately began recovery efforts. NNSA's commitment to not start 
construction until design is 90% complete allows the Department to 
reevaluate its options. NNSA engaged with B&W Y-12's corporate 
leadership and performed a root cause analysis for accountability 
purposes as well as to improve performance going forward. Several new 
personnel were brought in to improve the caliber of the project team, 
significant fee reductions were made, and an allowability review for 
direct costs has been initiated. Specifically, in FY 2012, NNSA reduced 
the fee associated with the design work by 90% ($5.1M), and in FY 2013, 
fees were reduced 60%. ($29M) in the areas of Project Management and 
Leadership primarily due to poor performance on UPF design, thereby 
sending a strong performance signal within the parameters of the 
contract fee structure.   [See page 12.]
    Mr. Held. We have not lost $1.2B on design. To date we have 
expensed approximately $880M on the UPF project. Much work has occurred 
on the project beyond engineering design for the big box structure, 
such as NEPA, technology development, utilities and road relocation, 
and safety basis studies and analysis. The design efforts to date have 
focused principally on building 9212 process capabilities, development 
of process technologies, and the development of the safety analysis and 
authorization basis. These efforts are readily transportable to a 
smaller facility that contains the 9212 capabilities (ie: casting).   
[See page 12.]
    Mr. Held. The NNSA is always striving to find costs savings in 
support of mission activities, and we welcome all suggestions on how to 
save taxpayer funds. NNSA and its contracting partners, for example, 
are looking at ways to reduce deferred maintenance, control the growth 
of pension payments, and constrain medical expense growth. NNSA is also 
asking its Lab and Plant leadership teams to help identify savings 
initiatives. The new Pantex/Y-12 award may serve as a model to spur 
additional cost savings across NNSA.
    The NNSA will continue to balance mission requirements with budget 
driven adjustments, and looks forward to close coordination with 
Congressional committees, the Department of Defense and other 
stakeholders to ensure that the budget reflects the most effective and 
efficient operation possible while supporting our mission deliverables. 
Going forward, any additional efficiency targets imposed in the absence 
of a specific plan for their accomplishment would constitute a scope 
cut and therefore adversely affect the nuclear weapons modernization 
program, as well as NNSA's broader Weapons Activities mission space to 
include the stockpile, science, infrastructure recapitalization, and 
counterterrorism.   [See page 27.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. COOPER
    Mr. Held. The complete removal of highly enriched uranium (HEU) 
from these 11 countries plus Taiwan represents 322 kilograms or .06% of 
the total amount of HEU at civilian facilities. While the overall 
percentage is relatively small, the number of countries that have HEU 
inventories greater than one kilogram was reduced by 1/3 during the 
Four Year Effort.   [See page 15.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Held. After Russia conducted a reassessment of its plutonium 
disposition program to better align it with its national nuclear energy 
strategy, Russia proposed to the United States that Russia's 
disposition program center on the use of fast reactors: the BN-800 
under construction and a smaller BN-600 which was already part of its 
disposition program. Russia also proposed a number of significant non-
proliferation controls on the use of fast reactors. As a result, the 
Plutonium Management and Disposition Agreement (PMDA) was amended, and 
the agreement entered into force in July 2011. It allows Russia to 
dispose of its weapon-grade plutonium by fabricating it into MOX fuel 
and irradiating it in fast reactors under certain nonproliferation 
constraints, particularly with respect to the breeding ratio and 
reprocessing of breeder blankets. Russia continues to make progress on 
the BN-800 fast reactor, which will be used to support Russian 
plutonium disposition.   [See page 20.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 8, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. In January, Secretary Hagel provided a report assessing 
the requirements for plutonium pit manufacturing. This report 
reaffirmed the requirement for a pit production capacity of 50-80 pits 
per year.
    a. Do you consider achieving a pit production capacity of this 
level to be part of implementing President Obama's stated goal of a 
``responsive nuclear infrastructure?''
    b. Should pit production capacity be tied solely to the needs of 
the life extension programs, or should the requirement for a responsive 
infrastructure also influence when we achieve a pit production capacity 
of 50-80 per year?
    Mr. Weber. A. A responsive nuclear infrastructure certainly 
includes a plutonium pit production capability. This year the Nuclear 
Weapons Council will review the capacity requirement and the schedule 
for achieving it.
    B. Pit production is not tied solely to life-extension programs. 
Secretary Hagel's report provides four drivers for our pit production 
requirements: 1) policy objectives for the nuclear deterrent, 
especially the desire to reduce the weapons in the hedge by 
implementing a responsive infrastructure; 2) military requirements; 3) 
stockpile aging; and 4) infrastructure cost and capacity.
    Mr. Rogers. Did the Nuclear Posture Review Implementation Study 
examine in detail various options for the structure of U.S. nuclear 
forces, including a dyad and potential monad?
    Last summer, the results of this study were released. Why did 
President Obama ultimately decide to reject eliminating a leg of triad?
    Mr. Weber. The Nuclear Posture Review Implementation study provided 
a detailed look at U.S. deterrence requirements, including alternative 
employment strategies and force structures. The Presidential guidance 
stated that the United States will maintain a nuclear triad, which is 
the best option to maintain strategic stability at reasonable cost, 
while hedging against potential technical problems or vulnerabilities.
    Mr. Rogers. Can you provide the exact amount for the record, and 
your best recollection right now, of the amount of DOD budget authority 
it has transferred to DOE-NNSA in FY15? How much did it provide in FY14 
and in previous years?
    Would you say the Department has gotten its money's worth--is DOD 
happy with NNSA's execution of key programs like LEPs and major 
infrastructure construction projects?
    Mr. Weber. Currently, DOD has transferred $1.535 billion in Fiscal 
Year (FY) 2015 budget authority to NNSA. The following table provides 
the FY 2011-2015 total transfers (topline and annual) in millions:

 
----------------------------------------------------------------------------------------------------------------
              TY $M                   FY 2011         FY 2012         FY 2013         FY 2014         FY 2015
----------------------------------------------------------------------------------------------------------------
President's Budget Request 2011   642             887             1,082           1,428           1,644
 Topline Budget Authority
 Transfer
----------------------------------------------------------------------------------------------------------------
Uplift                              0               290             439             843           1,535
----------------------------------------------------------------------------------------------------------------
Total                             642             1,177           1,521           2,271           3,179
----------------------------------------------------------------------------------------------------------------


    Through the Nuclear Weapons Council, DOD has worked with NNSA to 
prioritize programs within the available funding. DOD continues to work 
with the Department of Energy to improve the weapons procurement 
process and meet our requirements for life-extension programs.
    Mr. Rogers. The FY13 NDAA requires the Nuclear Weapons Council to 
certify the budget request for NNSA each year. As the Executive 
Director of the Council, do the Council members believe this is a 
useful process and authority? How could it be strengthened?
    Was the certification process helpful during budget request 
formulation? Do you have greater confidence that NNSA is applying 
resources to military priorities?
    Mr. Weber. The certification process has helped increase 
communication and transparency between DOD and the Department of Energy 
during budget formulation. It has facilitated the incorporation of DOD 
priorities.
    Mr. Rogers. The FY13 budget request terminated the Common Vertical 
Lift Support Platform (CVLSP) (i.e., helicopter). This helicopter was 
to replace Air Force UH-1Ns that average more than 40 years old and 
fill critical roles in security in the ICBM fields. What is the Air 
Force's plan to fill the gap in capability left by cancellation of this 
program?
    Mr. Weber. The Air Force plans to submit a formal report as 
directed by the 2014 NDAA on September 30, 2014 outlining the UH-1N 
Replacement Strategy. The strategy is currently under review, and will 
be determined by the AFROC this summer. The decision facing the Air 
Force is whether to continue flying the UH-1N via a Service Life 
Extension Program or to replace the UH-1N with another airframe.
    Mr. Rogers. Does the decision to defer the first interoperable 
warhead program by at least 5 years affect the number of W76-1 warheads 
to be produced? Do we now need more warheads for a hedge?
    Mr. Weber. DOD is not planning to increase the number of W76-1 
warheads produced. The Nuclear Weapons Council will continuously 
evaluate the hedge requirements and make adjustments if necessary.
    Mr. Rogers. Do you think that NATO allies should be asked to share 
part of the costs of the B61 Life Extension Program (LEP) costs 
currently paid for by the NNSA and the Air Force?
    Would having the NATO allies pay for part of the LEP be against the 
Nuclear Nonproliferation Treaty?
    Do NATO allies intend to purchase dual-capable aircraft with their 
own funds?
    Why are B61s necessary for extended deterrence in Europe?
    Please describe why the B61 LEP is needed for our own strategic 
deterrent, in addition to our extended deterrent for NATO and allies in 
Asia.
    Ms. Bunn. Several of our NATO Allies do make substantial monetary 
contributions in several ways to offset the costs of stationing nuclear 
weapons in Europe. However, there is no desire for NATO Allies to help 
fund the LEP both because the United States requires the B61-12 for its 
own nuclear deterrence requirements and because U.S.-only funding 
ensures that the United States retains total control of design and 
capability decisions for the weapon. This allows the United States to 
ensure that the weapon has the desired characteristics for the 
strategic bomber mission as well as the dual-capable aircraft mission.
    The existing nuclear burden-sharing arrangements with NATO are 
consistent with Article 1 of the Nuclear Non-Proliferation Treaty 
(NPT). If Allies were to fund of a portion of the B61-12 LEP, by 
changing the status quo, it might create the perception that the 
actions of the United States and its NATO Allies are inconsistent with 
the NPT.
    Several NATO Allies currently have, and operate, with their own 
funds, dual-capable aircraft at various levels of readiness that are 
capable of delivering nuclear weapons. These aircraft are assigned to 
the NATO nuclear deterrence mission on a voluntary basis. We expect 
that these contributions will continue in accordance with NATO's 2012 
Deterrence and Defense Posture Review (DDPR), which concludes that the 
current mix of nuclear, conventional, and missile defense capabilities 
for deterrence and defense is appropriate for the Alliance. For some 
NATO Allies, this will eventually require the purchase of new aircraft, 
or refurbishment of existing aircraft, in order to continue to 
contribute to this important Alliance mission. Some of our NATO allies 
with dual-capable aircraft have already contributed to the research and 
development of the Joint Strike Fighter (JSF), as well expressing their 
intentions to purchase the JSF.
    The B61-12 LEP is necessary to maintain a credible and effective 
gravity bomb capability for the bomber leg of the U.S. nuclear Triad, 
our dual-capable aircraft, and those of our Allies, allowing for the 
eventual retirement and ultimate dismantlement of every other gravity 
bomb currently contained in the U.S. stockpile, all of which are being 
maintained well beyond their intended service lives. Completing the 
B61-12 LEP will demonstrate that the United States intends to maintain 
the important nuclear deterrence commitments of this and previous 
Administrations to Allies and partners across the globe and will 
reassure those Allies and partners that they do not need to pursue 
their own, independent nuclear weapons.
    Mr. Rogers. In the past several years, NATO has made a series of 
decisions and declarations regarding its nuclear posture. Please 
describe these decisions and NATO's nuclear policy going forward. What 
is NATO's policy regarding future changes to its nuclear posture?
    Ms. Bunn. NATO's most recent and definitive declaration regarding 
its nuclear posture is contained in the Alliance's May 2012 Deterrence 
and Defence Posture Review (DDPR). The DDPR affirmed that nuclear 
weapons are a core component of NATO's overall deterrence and defense 
capabilities along with conventional and missile defense forces; that 
NATO is committed to maintaining an appropriate mix of these 
capabilities; and that, as long as nuclear weapons exist, NATO will 
remain a nuclear Alliance.
    With respect to possible future changes to NATO's nuclear posture, 
the DDPR also states that ``the existing mix of capabilities and plans 
for their development are sound,'' but that ``NATO will continue to 
adjust its strategy, including with respect to the capabilities and 
other measures required for deterrence and defense, in line with trends 
in the security environment.'' In this respect, ``NATO is prepared to 
consider further reducing its requirement for non-strategic nuclear 
weapons assigned to the Alliance in the context of reciprocal steps by 
Russia, taking into account the greater Russian stockpiles of non-
strategic nuclear weapons stationed in the Euro-Atlantic area.''
    Mr. Rogers. Please tell us the status of the interagency process 
that will make a determination on whether this cruise missile is a 
treaty violation? When will this determination be made?
    Ms. Bunn. The Administration takes compliance with all arms control 
agreements extremely seriously.
    The Administration will report the most current determinations on 
arms control compliance in the annual compliance report, prepared by 
the State Department, after receiving inputs from the Departments of 
Defense and Energy, as well as the Intelligence Community.
    This year's report is in the final review phases and will be fully 
coordinated and submitted soon.
    Mr. Rogers. In January, Secretary Hagel provided a report assessing 
the requirements for plutonium pit manufacturing. This report 
reaffirmed the requirement for a pit production capacity of 50-80 pits 
per year.
    Do you consider achieving a pit production capacity of this level 
to be part of implementing President Obama's stated goal of a 
``responsive nuclear infrastructure?''
    Should pit production capacity be tied solely to the needs of the 
life extension programs, or should the requirement for a responsive 
infrastructure also influence when we achieve a pit production capacity 
of 50-80 per year?
    Ms. Bunn. The capability to produce 50-80 pits per year is a 
component of a responsive infrastructure that both meets the needs of 
our planned and prospective life-extension programs and allows the 
United States to shift away from retaining large numbers of non-
deployed warheads as a hedge against technical or geopolitical 
surprise, allowing reductions in the nuclear stockpile. The pit 
production capacity of our nuclear infrastructure should take both of 
these factors into account.
    Mr. Rogers. Did the Nuclear Posture Review Implementation Study 
examine in detail various options for the structure of U.S. nuclear 
forces, including a dyad and potential monad?
    Last summer, the results of this study were released. Why did 
President Obama ultimately decide to reject eliminating a leg of triad?
    Ms. Bunn. The review was led by the DOD, and included senior-level 
participation by the Office of the Secretary of Defense, the Joint 
Chiefs of Staff, U.S. Strategic Command, the Department of State, the 
Department of Energy, the Office of the Director of National 
Intelligence, and the National Security Council staff. The review did 
examine different nuclear force postures; however, the President 
determined that retaining all three Triad legs will best maintain 
strategic stability at reasonable costs, while hedging against 
potential technical problems or vulnerabilities and changes to the 
geopolitical environment.
    Mr. Rogers. President Obama's Nuclear Employment Guidance rejects 
the notion of de-alerting U.S. nuclear forces while continuing to 
examine options to reduce the role of ``Launch under Attack'' in U.S. 
planning. Please explain why the President chose to reject de-alerting 
U.S. ICBM forces?
    Ms. Bunn. The President determined that U.S. nuclear forces should 
be operated on a day-to-day basis in a manner that maintains strategic 
stability with Russia and China, deters potential regional adversaries, 
and assures U.S. allies and partners. He has also directed DOD to focus 
on increasing the decision time and information that would be available 
to the President in the event of a crisis where nuclear weapons use was 
being considered.
    Mr. Rogers. President Obama's Nuclear Employment Guidance rejects 
the notion of de-alerting U.S. nuclear forces while continuing to 
examine options to reduce the role of ``Launch under Attack'' in U.S. 
planning. Please explain why the President chose to reject de-alerting 
U.S. ICBM forces?
    Do you agree with the characterization that we hear that our 
nuclear forces, particularly our ICBMs, are on ``hair-trigger alert''?
    Ms. Bunn. After a comprehensive review, the President concluded 
that all three legs of the Triad should be operated on a day-to-day 
basis in a manner that maintains strategic stability with Russia and 
China, deters potential regional adversaries, and assures U.S. allies 
and partners. He has also directed DOD to institute measures that would 
increase the decision time and information available to the President 
in the event of a crisis where nuclear weapons use is considered or had 
occurred.
    I do not agree with the characterization that our nuclear forces 
are on ``hair trigger'' alert. U.S. nuclear forces, even those at high 
states of readiness, are subject to multiple layers of control and 
strict safeguards. In addition, I fully support the President's 
decision to continue the practice of open-ocean targeting of our 
ballistic missiles so that in the highly unlikely event of any 
accidental or unauthorized launch of a U.S. ballistic missile, the 
weapon would land in the open ocean.
    Mr. Rogers. Do you believe our extended deterrent assurances to 
allies lose credibility if we continue to slip deadlines for 
modernizing our stockpile?
    Ms. Bunn. I believe that the credibility of our extended deterrence 
assurances to our allies and partners is based on multiple factors. One 
of the most important factors is the consistent affirmation that the 
United States will retain a credible capability to forward-deploy 
nuclear weapons with heavy bombers and dual-capable fighter aircraft in 
support of U.S. allies and partners around the world. Over time, it is 
possible that the absence of the weapons modernization programs would 
have an impact on both deterrence and assurance. The B-61 Life 
Extension Program FPU schedule did slip as a result of sequestration 
and delays in receiving funding. Such events highlight the importance 
of resolving the fiscal issues that we face, and how crucial stable and 
consistent funding is to the ability of these programs to meet cost and 
schedule deadlines.
    Mr. Rogers. What is the minimum number of Ohio-class replacement 
submarines that are required to fulfill STRATCOM's requirements for 
sea-based deterrence? Please explain why less than 12 does not meet 
requirements?
    Admiral Benedict. Navy conducted a thorough analysis and determined 
that a force of 12 OHIO Replacement SSBNs with 16 missile tubes, 
compared to the 14 OHIO Class, satisfies strategic deterrent 
requirements at the most affordable cost and meets STRATCOM operational 
requirements. The requirement to procure 12 OHIO Replacement SSBNs 
allows the Navy to provide 10 operational SSBNs during class mid-life 
overhaul period. During these overhauls, two SSBNs will be non-
operational while they undergo required mid-life maintenance periods. 
This force will fulfill the combatant commander minimum essential 
requirement of 10 operational SSBNs. Reducing the fleet of SSBNs below 
10 operational, now or in the future, will reduce survivability and 
will limit flexibility to respond to an uncertain strategic future
    Mr. Rogers. What will happen to the Navy and Air Force's costs for 
rocket motors if NASA chooses to pursue liquid-only technology for 
future spaceflight rockets? Are you comfortable that there is an 
interagency process between the services and NASA to understand the 
interdependencies between your programs for this?
    Admiral Benedict. Navy's Trident II (D5) rocket motor costs are 
impacted and dependent on NASA's program decisions. NASA is expected to 
make a decision in the 2016 timeframe on the use of liquid or solid 
propulsion systems as part of the advanced booster for the next 
generation of space launch vehicles. If NASA decides to use liquid 
propulsion systems for the advanced booster, this will result in 
significant future unit cost increases and result in diminishing 
critical skills in the solid rocket motor industry. These increased 
cost and reduced critical skills in an already fragile industry will 
have an impact on the Navy's Trident II (D5) program. The Navy has 
worked closely with our industry partners to reduce overhead cost and 
streamline the infrastructure in-line with current production needs. 
The industrial base remains volatile and ongoing NASA solid rocket 
motor development programs are vital for sharing significant overhead 
costs for the Navy. Navy has been working closely with NASA and other 
Services to share and understand interdependencies between various 
programs. There is an effort to formalize this process by establishing 
a multi-agency team of experts. Solid rocket motors are vital for 
weapon systems and space applications and the industrial base remains 
an issue that must be addressed at the national level.
    Mr. Rogers. We have a classified document agreed to by the Navy and 
NNSA regarding the number of W76-1 warheads that will be provided to 
the Navy by certain dates. Has NNSA been meeting those milestones that 
were agreed to?
    Have you had to adjust fleet operations at all due to NNSA's 
slowdown in delivering W76-1s? What is the likelihood you will have to 
do so in the future?
    Admiral Benedict. NNSA did not meet their commitments for 
deliveries of W76-1s to the Navy in FY13. The NNSA proposed a revised 
delivery schedule for FY14 and FY15 to recover and meet its commitment 
to the Navy. Due to the deficiencies of deliveries to the Navy in FY13, 
Navy worked with STRATCOM to revise the deployment plan for our warhead 
modernization effort to ensure there are no operational impacts. We are 
closely monitoring this issue.
    Mr. Rogers. Please provide us the Navy's perspective on why we 
should consider including a refresh of the conventional high explosives 
as part of the W88 ALT 370 program.
    Admiral Benedict. The Navy believes it is prudent to consider a 
W88/Mk5 conventional high explosive (CHE) replacement as a part of the 
W88/Mk5 Alteration 370 (Alt 370) Arming, Fuzing and Firing program. CHE 
replacement is a practical mitigation strategy to sustain the W88/Mk5 
into the late 2030s. Executing the replacement in conjunction with the 
ongoing Alt 370 program is a cost effective option, which minimizes 
impact on the operational Fleet and the overall nuclear weapons 
complex. Many of the planned activities for the Alt 370, including 
flight and ground qualification testing, could be used to test and 
qualify the warhead after CHE replacement. The W88/Mk5 is a critical 
component of the sea based leg of the triad. The Navy is committed to 
work with the Nuclear Weapons Council to ensure it is fully informed of 
the options available to maintain an effective and credible sea-based 
strategic deterrent capability.
    Mr. Rogers. Do you believe the Nuclear Weapons Council and its 
subgroups, including the Standing Safety Committee that you both sit 
on, function effectively? Would you like to see any changes?
    Admiral Benedict. I believe the Nuclear Weapons Council (NWC) 
continues to improve its oversight of the nuclear complex and has 
increased transparency and accountability. With regard to the subgroups 
such as the NWC Standing Safety Committee (NWC SSC), of which I am a 
member, our responsibility is to provide the information, options, and 
recommendations to the NWC in order to allow the NWC to make informed 
decisions regarding the nuclear enterprise. One key element of the NWC 
SSC that could be improved is the review of material to a deeper depth 
of understanding; this could happen through debate at the SSC. Another 
area that I would like see improve is better empowerment of the Action 
Officers (AO) on the NWC SSC. The AO core is the backbone of the NWC 
SSC. As members of the NWC SSC, we must better utilize the highly 
capable and professional AO structure to ensure they are always 
afforded the opportunity to conduct thorough and thoughtful analysis 
before issues are presented to the NWC SSC or NWC for decision.
    Mr. Rogers. Does the decision to defer the first interoperable 
warhead program by at least 5 years affect the number of W76-1 warheads 
to be produced? Do we now need more warheads for a hedge?
    Admiral Benedict. The decision to defer the first interoperable 
warhead program did not resulted in any changes to W76-1 quantities. I 
defer to the Office of the Secretary of Defense to provide a response 
to the hedge requirements. However, new hedge numbers, in light of the 
delay, would make sense.
    Mr. Rogers. President Obama's Nuclear Employment Guidance rejects 
the notion of de-alerting U.S. nuclear forces while continuing to 
examine options to reduce the role of ``Launch under Attack'' in U.S. 
planning. Please explain why the President chose to reject de-alerting 
U.S. ICBM forces?
    Do you agree with the characterization that we hear that our 
nuclear forces, particularly our ICBMs, are on ``hair-trigger alert?''
    General Harencak. The assertion that U.S. Intercontinental 
Ballistic Missiles (ICBMs) are on ``hair-trigger alert'' is false.
    The U.S. ICBM force is highly safe, secure, and effective, and is 
an integral part of a command and control system that maximizes 
Presidential decision time and flexibility during times of crisis. As 
the 2010 Nuclear Posture Review affirmed, the current day-to-day alert 
posture of ICBMs enhances strategic stability, provides significant 
advantages to the U.S. nuclear force posture through extremely secure 
command and control, and offers high readiness rates at relatively low 
operating costs.
    As with other U.S. strategic weapon systems, the use of ICBMs is 
governed by strict, redundant nuclear safety and surety procedures, and 
their release is possible only by direct Presidential authorization. 
The Air Force believes that maximizing Presidential decision time is 
imperative and can further strengthen strategic stability, especially 
at lower force levels.
    Mr. Rogers. Why does the FY15 budget request propose to delay the 
Long Range Standoff (LRSO) weapon by 1-3 years? What is the Air Force's 
preference for how long that delay actually is?
    General Harencak. The Fiscal Year 2015 President's budget request 
shifts funding for the LRSO program by three years due to warhead life 
extension schedule delays with the National Nuclear Security 
Administration (NNSA) and the continuing fiscal challenges of the 
Budget Control Act.
    The Air Force anticipates partnering with NNSA beginning in 4QFY14 
to begin the Concept Assessment Phase (6.1) of the LRSO warhead effort. 
At the same time, the Air Force continues risk reduction and early 
systems engineering work as it assesses options to affordably execute 
the LRSO program. The Air Force preference is to minimize the delay to 
the extent necessary to align with the NNSA warhead program and meet 
combatant commander initial operating capability requirements.
    Mr. Rogers. When does our current force of Minuteman III ICBMs 
start aging out? What life extension programs are currently underway 
for the ICBMs?
    What assessments or surveillance are we doing related to aging in 
the ICBM force?
    What are our plans or programs to extend the life of our Minuteman 
III ICBMs? When must the decision be made to proceed with life 
extension?
    General Harencak. Several modernization efforts for the Minuteman 
III (MM III) program are underway, such as ICBM Fuze Modernization, 
Solid Rocket Motor (SRM) Modernization, and Guidance Modernization that 
will ensure aging subsystem replacement and viability of MM III 
operations through 2030, as well as supporting the transition to the MM 
III follow-on. Age out of MM III subsystems is projected to occur 
between 2020 and 2030.
    Both acquisition and life extension efforts, to include ICBM Fuze 
Modernization, SRM Modernization and Guidance Modernization programs, 
will deliver replacement subsystems in FY22, FY23, and FY27 
respectively. Additionally, the ongoing Ground Based Strategic 
Deterrent (GBSD) Analysis of Alternatives, expected to be completed 
this fall, will inform requirements, acquisition strategies and plans 
for on-going efforts of SRM and guidance modernization.
    The Air Force regularly conducts Force Development Evaluation 
flight tests, numerous ground tests, and surveillance programs to 
determine the reliability of all MM III weapon system aspects. These 
efforts allow for the identification of operational deficiencies that 
must be addressed to sustain current and future operations.
    Mr. Rogers. What will happen to the Navy and Air Force's costs for 
rocket motors if NASA chooses to pursue liquid-only technology for 
future spaceflight rockets? Are you comfortable that there is an 
interagency process between the services and NASA to understand the 
interdependencies between your programs for this?
    General Harencak. Absent significant changes to the SRM industrial 
base, there is no empirical data or forecasted impact to the Air 
Force's costs for rocket motors should NASA choose to pursue liquid-
only technology for future spaceflight rockets. The Air Force's Solid 
Rocket Motor (SRM) Modernization program, funded in the FY15 
President's Budget, is based on current industrial base capacity and is 
not reliant on NASA's participation.
    The Air Force understands the importance of the current industrial 
base supporting SRM Modernization program efforts. We will continue to 
work with other services, industry partners, and NASA to explore 
commonalities, share technologies and production practices, and 
eliminate redundancies throughout the SRM industry.
    Mr. Rogers. Do you believe the Nuclear Weapons Council and its 
subgroups, including the Standing Safety Committee that you both sit 
on, function effectively? Would you like to see any changes?
    General Harencak. Consistent with the Nuclear Weapons Council 
Chairman's annual report to Congress, the Council and its subgroup 
continue to meet its responsibility of ensuring the United States 
retains a safe, secure and effective nuclear deterrent. As the 
authority and responsible custodian for two legs of the Triad, the Air 
Force believes it should have a larger and more direct role in shaping 
the processes and decisions that affect the nuclear weapons enterprise.
    Mr. Rogers. Please update us on the investigation into the fire and 
radiation release at the Waste Isolation Pilot Plant in New Mexico.
    a. What has been found?
    b. How long do you expect the shutdown to last?
    c. How is the shutdown at WIPP sending ripple effects across the 
DOE-EM complex?
    Mr. Huizenga. a. Following the February 5th salt haul vehicle fire 
and the February 14th radiological release events, DOE commissioned two 
Accident Investigation Boards (AIB). The vehicle fire AIB final report 
and initial radiological release AIB report have been issued and the 
Department is currently developing formal Corrective Action Plans for 
both. After the final radiological release AIB report is prepared and 
issued, a separate Corrective Action Plan will be prepared.
    DOE continues to investigate the cause of the February 14th 
radiation release. In the underground, the focus has been on taking 
photographs and videos of the waste stacks, taking samples and swipes, 
and retrieving filter paper from the continuous air monitor. During the 
month of June, underground entries have been suspended while High 
Efficiency Particulate Air filters in the ventilation system are 
replaced. After this filter evolution is complete, underground entries 
will start again for further investigation, surveying, maintenance, 
decontamination and other activities. The information obtained during 
the investigation is being analyzed by some leading experts in various 
fields of expertise. All of this is being studied to try to determine 
the cause of the release. Based on recent entries into the WIPP 
underground, the AIB is evaluating the contents of a set of waste drums 
that came from Los Alamos National Laboratory (LANL) that are located 
in Panel 7. The AIB is looking at the possibility that a chemical 
reaction may have occurred within a drum, causing a potential high-heat 
event and a subsequent release.
    b. The length of the time required to recover from the incident 
cannot be fully known until the cause of the event is understood and 
recovery planning is completed.
    c. We are carefully evaluating the impacts to other Department of 
Energy sites including impacts on commitments with regulators. Specific 
impacts being evaluated include the Department's ability to meet: the 
removal of all legacy transuranic (TRU) waste from the Idaho National 
Laboratory by December 31, 2018, and, certain milestones for the WIPP 
certification of contact-handled and remote-handled TRU located at the 
Oak Ridge Reservation beginning September 30, 2015.
    Mr. Rogers. Is EM on track to meet its regulatory and compliance 
agreements for FY14? What about for FY15 and beyond?
    Mr. Huizenga. The Environmental Management (EM) program will make 
significant cleanup progress with the President's fiscal year (FY) 2015 
budget request of $5.6 billion. Assuming Congress appropriates the 
President's request, key progress will include continued efforts on 
radioactive tank waste stabilization, treatment, and disposal; special 
nuclear material consolidation, stabilization, and disposition; 
transuranic and mixed/low-level waste disposition; and excess 
facilities deactivation and decommissioning.
    While significant cleanup progress has been achieved and will 
continue to be made in fiscal years 2014 and 2015, several challenges 
have impacted our progress on certain important projects. These 
challenges include the Balanced Budget and Emergency Deficit Control 
Act, which enacted sequestration, reduced EM funding by $394 million in 
FY 2013, and the FY 2014 lapse in appropriations and partial-year 
Continuing Resolution delayed work. The culmination of these events is 
anticipated to delay some FY 2015 milestones that cannot be met even 
with additional funds.
    To the extent milestones are anticipated to be delayed, DOE will 
follow the provisions of its cleanup agreements for working with 
regulators regarding milestone adjustments, as necessary.
    Mr. Rogers. In January, Secretary Hagel provided a report assessing 
the requirements for plutonium pit manufacturing. This report 
reaffirmed the requirement for a pit production capacity of 50-80 pits 
per year.
    a. Do you consider achieving a pit production capacity of this 
level to be part of implementing President Obama's stated goal of a 
``responsive nuclear infrastructure?''
    b. Should pit production capacity be tied solely to the needs of 
the life extension programs, or should the requirement for a responsive 
infrastructure also influence when we achieve a pit production capacity 
of 50-80 per year?
    Mr. Held. a. NNSA considers pit production capability and capacity, 
as well as other capabilities, as components of a responsive 
enterprise. Each year we assess the affordability of our program and 
make adjustments to balance across our mission space.
    b. NNSA is committed to maintaining key plutonium production and 
associated support capabilities at the Los Alamos National Laboratory. 
Moreover, NNSA is committed to meeting the requirements that underpin 
implementation of a responsive infrastructure which includes plans to 
construct two modular structures that will achieve full operating 
capability not later than 2027.
    NNSA's commitments are contingent upon the receipt of timely 
congressional appropriations and authorizations, including the release 
of previously requested reprogramming funds from the Chemistry and 
Metallurgy Research Replacement (CMRR) project in August 2013.
    Mr. Rogers. Why does the FY15 budget request propose to delay the 
Long Range Standoff (LRSO) weapon by 1-3 years? Would NNSA prefer a 1, 
2, or 3 year delay to LRSO?
    a. How would the various delays affect the nuclear security 
enterprise, particularly production workloads at the plants and design 
teams at the labs?
    Mr. Held. In July 2014, the NNSA and Air Force will begin an LRSO 
Phase 6.1 Concept Assessment. The Phase 6.1 work includes development 
of an integrated master schedule and aligning the first production unit 
of the warhead with missile development. The Nuclear Weapons Council 
(NWC) took a preliminary step in this program by identifying the W80 
and W84 cruise missile warheads as the best candidates for a reuse-
based life extension that will be performed by Lawrence Livermore 
National Laboratory (LLNL) and Sandia National Laboratories (SNL). The 
funding profile in the Future Years Nuclear Security Plan (FYNSP) 
supports a First Production Unit (FPU) date of FY 2027, reflecting a 
three-year delay, in keeping with the NWC's December 2013 meeting 
decision. This delay defers FYDP (and Future Years Defense Program) 
costs in order to present a fiscal profile for the Departments of 
Energy and Defense that is more affordable while simultaneously 
recognizing the priorities of both departments.
    a. At this early stage of the project, the FPU date could be 
accelerated by as much as 2 years (from the current baseline of 2027 
based on funding levels), to 2025, provided there is an increased 
funding profile to support the change. Production plant and design 
agency impacts of the various delay options have not been fully vetted 
but there appear to be benefits as well as disadvantages to the delay 
options. For example, the currently slated three-year delay in LRSO 
will cause a production gap when the B61-12 life extension program 
(LEP) and W88 Alt 370 complete production at the end of 2024. This 
production gap is projected to last until the start of LRSO production 
in 2027. However, design team workloads at SNL may actually be smoothed 
due to this delay as the B61-12 and W88 Alt 370 (SNL and Los Alamos 
National Laboratory supported) will be entering the production stage 
(Phase 6.5) at approximately the time LRSO (SNL and LLNL supported) is 
entering its early design stage (Phase 6.3) when demand for design work 
will begin to peak. Shifting FPU of LRSO back toward 2025 will reduce 
the production gap but may increase demand on SNL as multiple life 
extension programs incur overlapping design and engineering phases.
    Mr. Rogers. NNSA's Weapons Activities is requesting an increase of 
over half a billion dollars compared to the amount appropriated in 
FY14. At the same time, we're seeing NNSA defer or delay several key 
programs, including the LRSO warhead and the W78/88 LEP. Why are we 
being asked to pay so much more but get so much less than the program 
plan that was committed to in the FY14 budget request?
    Mr. Held. Each year we reassess requirements and costs based on new 
information, and re-align program and funding as necessary. The 
objective is to maintain balance of activities to accomplish both near 
and long term requirements. Plans for life extension programs, 
modernization of key capabilities, and delivery platforms are 
coordinated with DOD and decisions are made by the Nuclear Weapons 
Council.
    The program submitted in the FY 2015 President's Budget Request 
reflects a balanced program that sustains and modernizes the current 
stockpile while maintaining the facilities and workforce necessary to 
conduct stewardship for the indefinite future. The program maintains 
stockpile warheads through the conduct of routine maintenance such as 
limited life component exchange. It surveils and assesses the state of 
the stockpile so its safety, security, and effectiveness can be 
assured, and undertakes work to prevent or correct any shortfalls. It 
supports infrastructure and personnel across the complex to ensure 
production and intellectual capabilities are available for stewardship. 
Finally, it provides for the safe, secure, and environmentally 
compliant operation of these capabilities in support of the stockpile.
    Mr. Rogers. We have heard that the challenges that still need to be 
overcome to achieve fusion ignition at the National Ignition Facility 
(NIF) at Lawrence Livermore National Lab are considerable. What is the 
path forward for NIF in FY14 and the out-years?
    a. Why has NNSA rescinded its rule that all non-NNSA customers be 
charged ``full freight'' for use of the facility? Why have we gone so 
quickly away from the full cost recovery model before it was ever even 
implemented?
    Mr. Held. NNSA is continuing to follow the plan laid out in the 
November 2012 Report to Congress, Path Forward to Achieving Ignition in 
the Inertial Confinement Fusion Program. We are in the process of 
preparing a report on more specific milestones requested in the FY 2014 
Senate Report on Energy and Water Development Appropriations. We expect 
to have it published by August 11, 2014.
    In particular, NNSA has altered its efforts from pursuing the 
``point design'' to taking a scientific approach to understanding the 
barriers to ignition. While we have a long way to go, NIF has made 
considerable progress in improving the thermonuclear yields. We are 
within a few percentage points of achieving what is known as the 
``alpha-heating'' milestone. The weapons programs at both LLNL and LANL 
believe that these yield levels are already sufficient to begin 
returning valuable data on thermonuclear burn to inform our weapons 
physics efforts under stockpile stewardship.
    a. The response to the announcement that NNSA was implementing this 
policy made clear that it would result in no additional funds for NIF, 
but would lead to the cessation of research programs of interest to 
NNSA, DOE more broadly, and to the national security of the Nation.
    We rescinded this rule when Dr. Moniz became Secretary of Energy 
because it is contrary to the long-standing DOE policy--a policy with a 
substantial statutory backing--not to charge user facility fees for 
scientific users of DOE's user facilities unless the research is for 
proprietary uses. It is DOE practice that when we fund the operations 
at a facility, it funds the operations of that facility for all non-
proprietary users. A number of interagency reports document DOE and 
White House Office of Science and Technology Policy agreement that DOE 
would steward its high energy density facilities (NIF, Z and Omega) for 
broad national use. There are two classes of users outside of NNSA for 
NIF and Z; basic science users and DOD users. Basic science grants from 
the Office of Science or the NNSA under the Stockpile Stewardship 
Academic Alliances program are sized on the basis that principal 
investigators will not pay user facility fees. Likewise DOD users such 
as DTRA or MDA did not request and have not been appropriated funds to 
cover the costs of their use of NIF or Z.
    Mr. Rogers. Please provide us NNSA's perspective on the potential 
option of including a refresh of the conventional high explosives as 
part of the W88 ALT 370 program.
    Mr. Held. Any decision about high-explosives refresh will be driven 
and supported by a sound technical basis. Like all of our stockpile 
weapons, the W88 is evaluated in an annual cycle to assess and certify 
that it meets all requirements. As with all systems, there are concerns 
about continued aging of the systems and their components, and aging 
affects are considered as part of this annual surveillance. The high 
explosives are examined and monitored as part of this process. The 
Director of Los Alamos National Laboratory, the Design Agency for the 
W88/Mk5, has the responsibility to perform this annual evaluation for 
the CHE in the W88. He continues to assess that the W88 meets military 
requirements and remains safe, secure, and reliable. A new cycle of 
surveillance data will be collected this year, and will add to our 
overall understanding of how the explosives in the W88 are aging.
    NNSA has studied implementing a CHE refresh of the W88 in 
conjunction with the ALT 370 program. The CHE refresh option could 
support NNSA's development of alternatives to extend the W88 weapon 
system lifetime, but refreshing the CHE does not explicitly extend the 
useful lifetime of the W88. CHE refresh does reset the beginning of 
life for several components in the nuclear explosive package, a 
potentially helpful result if planned life-extension activities (i.e., 
Interoperable Warhead (IW)-1 or IW-2) for the W88 system are further 
postponed.
    NNSA completed a W88 CHE Refresh Cost and Feasibility Report, 
detailing an overall cost of $576 million (including management 
reserve) for implementation. Some combination of DOD and NNSA funding 
would be required to complete this activity, and NNSA's FY 2015 Budget 
Request does not include fiscal provisions for CHE refresh.
    In the near future, the W88 ALT 370 progress will diverge from an 
alignment with CHE refresh activities. Because of stakeholder interest, 
NNSA has taken steps in FY 2014 to allow maximum synergy between the 
ALT 370 and the CHE refresh through FY 2015. These steps preserve our 
ability to maintain leveraging and trade space for future LEPs and 
reduce the overall estimated cost to the government for implementation 
of both programs.
    Mr. Rogers. Please provide us the number of personal service 
contractors employed by directly by NNSA. How has this number changed 
over the past 5 years?
    Mr. Held. The number of personal service contractors employed by 
NNSA is zero and that number has not changed over the last 5 years. To 
ensure proper use of support service contracts, NNSA reviewed existing 
contracts and verified that terms and conditions do not create personal 
services contracts. Additionally, to assure that administration of 
support service contracts is appropriate and does not inadvertently 
create a personal services situation, NNSA is training federal 
employees on proper interactions with contractor employees.
    Mr. Rogers. How is the shutdown at WIPP sending ripple effects 
across the NNSA complex?
    Mr. Held. It is difficult to determine specifics. Depending on the 
length of the WIPP shutdown, there could be programmatic impacts to Pu 
Sustainment but as of now, LANL is investigating backup options to 
disposition waste that could mitigate some of the future impact.
    The WIPP shutdown could also impact the Material Recycle and 
Recovery (MRR) program at LANL. Any resumption of MRR work done 
involving the Plutonium Facility 4 vault de-inventory requires 
temporary drum storage at LANL until a long term storage solution is 
made available.
    Mr. Rogers. By law, Congress is supposed to receive the annual 
Report on Stockpile Assessments, which includes the assessments of 
stockpile health conducted by the laboratory directors and by the 
commander of U.S. Strategic Command, by March 15. Like last year, we 
still have not yet received this important report that we use to inform 
our legislative and budgetary decisions each year. Why the delay? When 
will we receive it?
    Mr. Held. a. The coordination process took longer than expected in 
order to reach consensus on a few specific items.
    b. The FY 2013 Report on Stockpile Assessments was signed by the 
President on May 8, 2014. It was delivered to Congress on May 9, 2014.
    Mr. Rogers. From a technical standpoint, do you believe the B61 LEP 
schedule can be slipped again without impacts to the safety, security, 
or reliability of the weapon? What is the assessment of the NNSA lab 
directors on this?
    Mr. Held. NNSA is seeing aging and degradation issues even today. 
The further we extend the schedule, the more risk we are forced to 
accept in the safety, security and reliability of the B61. As stated by 
Dr. Paul Hommert, President and Director of SNL, during his testimony 
to the HASC-SF in October of 2013 ``In order to sustain high confidence 
in the safety, security, and reliability of the B61 into the next 
decade, it is our technical judgment that we must complete the life 
extension program currently being executed.'' In recent years, his 
letters have documented concerns related to technology obsolescence and 
aging. While the B61 is currently safe and secure, these concerns 
continue to increase. For example, in the past three years, SNL and 
LANL have observed time-dependent degradation not seen before in 
electronic, polymer, and high-explosive components. This observation is 
not surprising given the age of the B61 weapon system, the oldest units 
of which were manufactured and fielded in the late 1970s with some 
components dating back to the 1960s. As planned, the B61 LEP addresses 
all known aging-related issues and also addresses technology 
obsolescence to ensure the bombs continue to meet DOD requirements.
    Mr. Rogers. Has NNSA benefited from the greater transparency to and 
involvement with the Nuclear Weapons Council?
    Mr. Held. The Nuclear Weapons Council (NWC) and its subordinate 
Standing and Safety Committee provide for the Services, Combatant 
Commands, Department of Defense, and Department of Energy to 
cooperatively determine the actions necessary to provide a safe, 
secure, and effective nuclear weapon deterrent. Collectively, we are 
able to review options for extending the lives of our weapons, develop 
a path to a responsive infrastructure, and accomplish trade-offs 
between various programs to attain the stockpile necessary to keep the 
Nation safe. Involvement with the NWC ensures options and opinions are 
discussed, enabling DOD and DOE/NNSA to work with Congress and the 
Administration from a common understanding.
    Mr. Rogers. Does NNSA's W76-1 LEP funding in FY15 and out-years 
meet all Navy requirements for regarding scheduled deliveries?
    a. Does the decision to defer the first interoperable warhead 
program by at least 5 years affect the number of W76-1 warheads to be 
produced? Do we now need more warheads for a hedge?
    Mr. Held. Yes. As submitted to Congress in the most recent Selected 
Acquisition Report, the W76-1 LEP funding profile for FY 2015 and 
subsequent years until close out of production in FY 2020 meets all 
Navy requirements for scheduled deliveries. Production numbers are 
written in the Selected Acquisition Report and delivery schedules are 
discussed at the Project Officers' Group. To prevent any confusion, 
NNSA is drafting a letter that will specify the agreed to deliveries. 
This letter should be sent out by the end of June/early July.
    a. The IW-1 decision did not affect the number of W76-1 to be 
produced, and NNSA has no plans to alter W76-1 production quantities. 
Decisions about hedge quantities would need to be addressed by the NWC.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. The January 2014 Defense Science Board report 
``Assessment of Nuclear Monitoring and Verification Technologies'' 
recommended much more focus on verification and detection to be able to 
meet medium and longer-term proliferation threats such as proliferation 
of nuclear weapons materials. There has also been concern about 
Russia's compliance on a nuclear arms treaty. The report concluded that 
``technologies and processes designed for current treaty verification 
and inspections are inadequate for monitoring realities.''
    What actions are NNSA and DOD taking in response to the Defense 
Science Board's report? And do you believe the resources and plans are 
adequate to meet this rapidly changing threat and need?
    What is the constraining factor? What more could we be doing if 
funds were available?
    Ms. Bunn. DOD and NNSA are participating in an effort led by the 
National Security Council at the Under Secretary level to address the 
concerns and recommendations in the report. The interagency group will 
formally analyze each DSB recommendation and identify relevant existing 
and planned activities. It will then determine whether resources and 
plans are adequate. The results will be used to assist in planning 
future activities to close any gaps identified in the report.
    Mr. Cooper. Last year, NNSA had a goal of $320 million in 
efficiencies but only achieved $80 million. This year, NNSA documents 
do not identify any new efficiencies. By comparison, DOD budget 
documents commit DOD to an additional $95 billion in efficiencies in 
the next 5 years, on top of efficiencies already being pursued such as 
20% cut in civilian personnel in the Office of the Secretary of 
Defense. DOD reportedly also identified nearly a billion dollars in 
efficiencies for NNSA. What efficiencies will NNSA commit to, and is 
there a plan to achieve the $240 million that were promised last year 
and are there any new efficiencies being considered or pursued?
    Ms. Bunn. As a member of the Nuclear Weapons Council Safety and 
Security Committee, I consistently work with my fellow committee 
members, including our NNSA/DOE colleagues who serve as co-chairs, to 
pursue increased efficiency and cost savings throughout the nuclear 
enterprise. DOD continues to offer the expertise of the Cost Assessment 
Program Evaluation office to NNSA as it pursues greater efficiencies in 
the future.
    Mr. Cooper. The January 2014 Defense Science Board report 
``Assessment of Nuclear Monitoring and Verification Technologies'' 
recommended much more focus on verification and detection to be able to 
meet medium and longer-term proliferation threats such as proliferation 
of nuclear weapons materials. There has also been concern about 
Russia's compliance on a nuclear arms treaty. The report concluded that 
``technologies and processes designed for current treaty verification 
and inspections are inadequate for monitoring realities.''
    What actions are NNSA and DOD taking in response to the Defense 
Science Board's report? And do you believe the resources and plans are 
adequate to meet this rapidly changing threat and need?
    What is the constraining factor? What more could we be doing if 
funds were available?
    Mr. Held. NNSA agrees with the DSB Report conclusion, ``the 
technologies and processes designed for current treaty verification and 
inspections are inadequate to future monitoring realities,'' and would 
expand this conclusion to include both cooperative and non-cooperative 
regimes. NNSA has invested heavily over the last 50 years to support 
current and future monitoring requirements, including using space-based 
detection means to support the Limited Test Ban Treaty, developing 
options for warhead verification in collaboration with Russia and 
international partners, and improving confidence in discriminating low-
yield underground nuclear explosions from other seismic sources. But 
work remains and the scope is expanding, as the Report describes. For 
example, NNSA expects future monitoring requirements under a 
cooperative regime may include accounting for deployed and non-deployed 
warheads in addition to delivery platforms; and future proliferation 
detection requirements under non-cooperative scenarios will likely 
expand both in capabilities sought by existing nuclear states and in 
the number of actors trying to access these capabilities. Solutions 
will require a continuous process of tailored and persistent 
surveillance for both warhead authentication and monitoring throughout 
weapon lifecycles and for monitoring undesirable nuclear activity 
throughout the world. In anticipation of the DSB Report findings, NNSA 
has especially emphasized verification and monitoring support efforts 
during the past several fiscal years. For example, NNSA has developed a 
series of national test beds in nonproliferation and monitoring to be 
responsive to future needs and capabilities to be adaptive to 
activities of a creative adversary. These efforts have included the 
participation of the Department of State's Office of Arms Control and 
Verification (AVC), the Department of Defense's Defense Threat 
Reduction Agency (DOD/DTRA), and representatives of nearly all of the 
Intelligence Community. This approach is fully aligned with the DSB 
recommendations on integrated spiral development. NNSA welcomes the 
opportunity to provide more detail and offers a classified briefing 
that would meet the request on both constraining factors and funding.
    Mr. Cooper. Last year, NNSA had a goal of $320 million in 
efficiencies but only achieved $80 million. This year, NNSA documents 
do not identify any new efficiencies. By comparison, DOD budget 
documents commit DOD to an additional $95 billion in efficiencies in 
the next 5 years, on top of efficiencies already being pursued such as 
20% cut in civilian personnel in the Office of the Secretary of 
Defense. DOD reportedly also identified nearly a billion dollars in 
efficiencies for NNSA. What efficiencies will NNSA commit to, and is 
there a plan to achieve the $240 million that were promised last year 
and are there any new efficiencies being considered or pursued?
    Mr. Held. In June 2014, NNSA submitted a report to Congress 
entitled Report on National Nuclear Security Administration (NNSA) 
Efficiencies in FY 2014 which detailed how NNSA met its FY 2014 target 
of $80.0 million in ``cost of doing business'' efficiencies and noted 
how pursuing $240 million in ``workforce prioritization'' efficiency 
targets would harm NNSA's ability to certify the safety, security, and 
effectiveness of the nuclear stockpile. The Committee requested NNSA 
identify an additional $59.5 million in ``cost of doing business'' 
efficiencies to release the remaining portion of the $139.5 million as 
described in the FY 2014 NDAA. NNSA will soon submit an addendum to the 
June report showing such savings.
    The NNSA is always striving to find costs savings in support of 
mission activities, and we welcome all suggestions on how to save 
taxpayer funds. The NNSA will continue to balance mission requirements 
with budget driven adjustments, and looks forward to close coordination 
with Congressional committees, the Department of Defense and other 
stakeholders to ensure that the budget reflects the most effective and 
efficient operation possible while supporting our mission deliverables.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    Mr. Weber. There are no plans for NATO countries to contribute to 
the cost of the B61-12 Life Extension Program (LEP). However, NATO 
basing nations provide substantial financial support to the nuclear 
mission by providing aircraft, aircrews, load crews, and security 
forces, and also by providing facilities and much of the supporting 
infrastructure and equipment necessary to support the U.S. munitions 
support squadrons. Several NATO allies have contributed funding to F-35 
development and have expressed a strong interest in acquiring the F-35 
as their dual capable delivery system. Without the financial 
contributions of those NATO allies, the F-35 unit cost to the U.S. 
would increase. NATO common funding has paid for over $300 million, 
approximately 75 percent of the B61 storage security infrastructure and 
upgrades. There are no plans to re-evaluate the number of B61s at this 
time.
    The existing arrangements for the deployment of U.S.-owned and 
controlled nuclear weapons in support of NATO are consistent with 
Article 1 of the Nuclear Non-proliferation Treaty (NPT). Allied funding 
of a portion of the B61 LEP would almost certainly create perception 
problems regarding U.S. and Allied compliance with the Nuclear NPT, and 
any sharing of nuclear weapons design information with non-nuclear 
States associated with such funding would be problematic.
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    Ms. Bunn. There are no plans for NATO Allies to make direct 
contributions to the cost of the B61-12 Life Extension Program (LEP) 
because the United States requires the B61-12 for its own nuclear 
deterrence requirements; and because U.S.-only funding for the B61-12 
LEP ensures that the United States retains total control of design and 
capability decisions. This allows the United States alone to ensure the 
weapon has the desired characteristics for the strategic bomber mission 
as well as the dual-capable aircraft mission.
    NATO basing nations provide substantial financial support to the 
nuclear mission at NATO main operating bases. In addition to providing 
aircraft, aircrews, load crews, and security forces, they also provide 
facilities and much of the supporting infrastructure and equipment for 
the U.S. munitions support squadrons. Because these facilities serve 
both national and Alliance purposes, and are funded through individual 
Alliance country budgets, it is not possible to provide an accurate 
assessment of exactly how much NATO basing nations have contributed in 
Fiscal Year 2014 toward NATO nuclear burden-sharing, although it is 
substantial.
    Funding of security enhancements and upgrades, as well as funding 
of infrastructure upgrades (investment) at the specific European weapon 
storage sites, is provided through the NATO Security Investment Program 
(NSIP). There have been four NATO weapons storage-related upgrades 
(Capability Package upgrades) since the original NATO Capability 
Package was approved in 2000. The total contributions are as follows:

 
----------------------------------------------------------------------------------------------------------------
                     Program Name                                Total (M)                U.S. Contribution
----------------------------------------------------------------------------------------------------------------
Initial WS3 Installation                               $215M USD                    $51.6M USD
Basic Capability Package (July 2000)                   12.8M EUR                      3.0M EUR
Addendum 1 (February 2005)                             17.9M EUR                     4.3M EUR
Addendum 2 (April 2006)                                13.0M EUR                     3.1M EUR
Addendum 3 (March 2009)                                13.0M EUR                     3.1M EUR
Addendum 4 (August 2011)                               108M EUR                      26.2M EUR
----------------------------------------------------------------------------------------------------------------

    The U.S. costs above are estimates that are based on a 24 percent 
burden-share. The U.S. burden-share is generally 22-24 percent of the 
total NSIP costs.

    The number of B61-12 weapons to be produced through the LEP was 
evaluated by DOD and approved by the Nuclear Weapons Council at the 
onset of the program. This requirement is continuously reviewed 
throughout the 6.X life cycle management process. The projected 
quantity of weapons to be refurbished is based upon the requirements 
for extended and strategic deterrence commitments as outlined in 
various plans and policy documents. Should the guidance and/or 
direction in these documents change, the quantity of B61-12 bombs to be 
produced would be adjusted accordingly. NATO's existing nuclear burden-
sharing arrangements are consistent with Article 1 of the Nuclear Non-
Proliferation Treaty (NPT). Allied funding of a portion of the B61-12 
LEP, by changing the status quo, might create the perception that the 
actions of the United States and its NATO Allies are inconsistent with 
the NPT.
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    Admiral Benedict. I defer to the Office of the Secretary of Defense 
to provide the answer to your questions.
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    General Harencak. There are no plans for North Atlantic Treaty 
Organization (NATO) partner nations to contribute directly to the cost 
of the B61 life extension program.
    Under the unique nuclear sharing arrangements in NATO, our allies 
participate in nuclear planning, possess nuclear-capable aircraft, and 
provide special facilities, certified equipment and highly trained 
personnel to safeguard, load, and employ U.S nuclear weapons. There are 
currently no plans to re-evaluate the number of B61s that will undergo 
the life extension program. Initial assessments indicate a very limited 
percentage of program savings could be achieved even if substantial 
numbers and capability are reduced due to the fixed and variable cost 
of all facets of the Life Extension Process. Life extended B61s will 
fulfill gravity weapon requirements for both strategic and non-
strategic extended deterrence roles. The construct through which the 
U.S. provides extended nuclear deterrence to NATO is consistent with 
our obligations under the Nuclear Non-Proliferation Treaty. The 
arrangement directly contributes to our non-proliferation goals by 
reassuring non-nuclear U.S. allies and partners that their security 
interests can be protected without their own nuclear weapons.
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    Admiral Richardson. I defer to the Office of the Secretary of 
Defense to provide the answer to your questions.
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    Mr. Huizenga. The total program cost estimate of the B61-12 Life 
Extension Program as reported in the last Selected Acquisition Report 
dated 30 September 2013 is $7,344M with an additional $0.811M leveraged 
from NNSA stockpile services and campaigns.
    The B61-12 is a critical component of the U.S. commitment to NATO 
through extended deterrence. NATO allies participate in the security 
alliance through sharing arrangements involving the use of facilities, 
aircraft and personnel but not in the direct development or production 
of U.S. nuclear weapons. These arrangements and planned activities to 
assure aircraft compatibility with the B61-12 are best explained by the 
Department of Defense.
    During the testimony, Mr. Weber stated that the number of B61-12s 
is subject to change as our nuclear posture evolves and will be 
assessed annually. Yes, U.S. deployment of nuclear weapons on the 
territories of our NATO allies is consistent with Article I of the 
Treaty on the Non-Proliferation of Nuclear Weapons (NPT). This article 
of the treaty deals only with what is prohibited, not with what is 
permitted. Under Article I of the Treaty, ``Each nuclear-weapon State 
Party . . . undertakes not to transfer to any recipient whatsoever 
nuclear weapons or other nuclear explosive devices or control over such 
weapons or explosive devices directly, or indirectly; . . . .'' No such 
transfer occurs under NATO nuclear defense planning. The issue of U.S. 
deployment of nuclear weapons on the territories of our NATO Allies was 
thoroughly considered during the negotiation of the NPT in the 1960s. 
This issue was of significant interest to NATO Allies and to the Senate 
during the NPT ratification hearings.
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    Dr. Winokur. Cost information and strategic planning related to 
nuclear weapons programs are outside the jurisdiction of the Defense 
Nuclear Facilities Safety Board. (Board).
    Ms. Sanchez. United States taxpayers are expected to cover much of 
the modernization of the B61s through a life extension program which is 
to cost around $2.1 billion.
    Are there any plans for NATO countries to contribute to the cost of 
the B61 life extension program of the B61? How much is NATO paying in 
FY14 for its share in terms of contribution to NATO nuclear sharing?
    Are there plans to re-evaluate the number of B6s that will undergo 
the life-extension program? And is nuclear sharing with NATO consistent 
with Article 1 of the Nuclear Non-Proliferation Treaty which says 
``nuclear states will not assist non-nuclear weapon states in acquiring 
nuclear weapons''?
    Mr. Held. a. The B61-12 is a critical component of the U.S. 
commitment to NATO through extended deterrence. NATO allies participate 
in the nuclear alliance through nuclear sharing arrangements involving 
the use of facilities, aircraft and personnel but not in the direct 
development or production of U.S. nuclear weapons. These agreements, 
future changes and planned activities to assure continued compatibility 
with the B61-12 are best explained by the Department of Defense.
    There are no plans for North Atlantic Treaty Organization (NATO) 
partner nations to contribute directly to the cost of the B61 life 
extension program.
    Under the unique nuclear sharing arrangements in NATO, our allies 
participate in nuclear planning, possess nuclear-capable aircraft, and 
provide special facilities, certified equipment and highly trained 
personnel to safeguard, load, and employ U.S. nuclear weapons.
    There are currently no plans to re-evaluate the number of B61s that 
will undergo the life extension program. Initial assessments indicate a 
very limited percentage of program savings could be achieved even if 
substantial numbers and capability are reduced due to the fixed and 
variable cost of all facets of the Life Extension Process. Life 
extended B61s will fulfill gravity weapon requirements for both 
strategic and non-strategic extended deterrence roles.
    The construct through which the U.S. provides extended nuclear 
deterrence to NATO is consistent with our obligations under the Nuclear 
Non-Proliferation Treaty. The arrangement directly contributes to our 
non-proliferation goals by reassuring non-nuclear U.S. allies and 
partners that their security interests can be protected without their 
own nuclear weapons.
    b. During the testimony, Mr. Weber stated that the number of B61-
12s is subject to change as our nuclear posture evolves and will be 
assessed annually. As stated above, the U.S. does not have a cost 
sharing agreement with NATO for the development or production of 
nuclear weapons.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. When was the last time of the DOD completed an 
assessment of the required number of B-61s required to receive the LEP? 
Would the DOD concur that in assessing the costs of the LEP program we 
should conduct a detailed analysis of the number of B-61s we retain in 
the future inventory?
    Mr. Weber. The 2013 Nuclear Posture Review Implementation Study 
reevaluated the future stockpile needs and assessed required numbers. 
The planned number of B61-12s is derived from that analysis. The total 
number required for the future inventory should be analyzed as military 
requirements evolve.
    Mr. Garamendi. Are there DOD plans to re-evaluate the number of 
B61s that would need to undergo the planned life extension program? Do 
you think we will need to maintain a triad indefinitely? Who thinks 
about long-term requirements and next-generation threats at STRATCOM? 
Do we need a new nuclear cruise missile if we will also develop a new 
nuclear-capable, stealthy bomber? Why?
    Ms. Bunn. The required number of B61-12s planned for inclusion in 
the life-extension program (LEP) is reviewed as part of the 6.X life 
cycle management process. The current quantity of weapons to be 
included is based upon the requirements for extended and strategic 
deterrence commitments contained in various plans and policy documents. 
Should the guidance and/or direction in these documents change, the 
quantity of weapons to be produced would be reevaluated and adjusted 
accordingly.
    As stated in the 2010 Nuclear Posture Review, although the United 
States seeks the peace and security of a world without nuclear weapons, 
as long as they exist, the United States will maintain a safe, secure, 
and effective arsenal. The President stated last year in his new 
nuclear employment guidance that retaining all three Triad legs will 
best maintain strategic stability at reasonable cost, while hedging 
against potential technical problems or vulnerabilities and 
geopolitical uncertainty. Since we cannot predict what the future 
holds, the Triad will provide the next generation of U.S. policymakers 
with a flexible and resilient range of capabilities to provide 
effective deterrence.
    Commander, U.S. Strategic Command's Resources (J8) and Intelligence 
(J2) directorates continuously review and collaborate on both 
requirements and threats, especially in light of on-going nuclear 
modernization efforts being conducted by several nuclear-capable 
countries.
    We do need the Long-Range Stand-Off (LRSO) cruise missile, which is 
the Air-Launched Cruise Missile (ALCM) replacement, and the new Long 
Range Strike-Bomber (LRS-B) that the U.S. Air Force is developing. The 
stand-off capability of the LRSO is important since it will also be 
carried by B-52 and B-2 bombers which are less stealthy than the LRS-
B's design. We want an arsenal that contributes to effective 
deterrence, is survivable and flexible, and provides options for the 
President. Having both a penetrating bomber and the stand-off 
capability of a cruise missile is necessary if we want an arsenal that 
possesses these traits, especially with the advent of regional nuclear 
powers whose intentions and decision processes are far from transparent 
and whose military capabilities are increasingly advanced.
    Mr. Garamendi. The GAO concluded in a recent report that DOD may be 
significantly underreporting its 10-estimate for the modernization of 
nuclear delivery systems, and does not include potential estimates for 
Air Force efforts to either modernize the ICBMs or develop a new 
bomber. Will you commit to providing a comprehensive and detailed plan 
to the committee on what the costs will be in the next 10 years? And as 
most of the costs for modernization will increase beyond the next 10 
years, do you have an understanding of when the costs will peak and 
what planning is needed over the next 20 years?
    Ms. Bunn. I am committed to working with my DOD and other Nuclear 
Weapon's Council (NWC) counterparts to provide the most accurate and 
detailed estimate possible of the costs associated with the efforts to 
modernize the Triad over the next 10 years. The NWC baseline plan lays 
out a cost-effective modernization path to providing an updated Triad 
that meets both military and policy requirements well beyond the next 
20 years. As you are aware, DOD and DOE report annually on the costs 
associated with the modernization plan over the subsequent 10 years in 
the Section 1043 report; the most recent version was delivered to 
Congress on May 7th, 2014.
    Mr. Garamendi. Is DOD planning to re-evaluate the number of B61s 
that would have to undergo life extension? What was the analysis that 
determined the number of B61s required? Please provide a copy of this 
analysis.
    Ms. Bunn. The number of B61-12 weapons to be produced through the 
Life-Extension Program (LEP) was evaluated by DOD and approved by the 
Nuclear Weapons Council (NWC) at the onset of the program. As part of 
the evaluation, the NWC received input and recommendations from several 
stakeholders and all members of the Council. The required number of 
bombs is continuously reviewed throughout the 6.X life cycle management 
process, and the current projected quantity of weapons to be 
refurbished is based upon the requirements for extended and strategic 
deterrence commitments as outlined in various plans and policy 
documents. Should the guidance and/or direction in these documents 
change, the quantity of B61-12 bombs to be produced would be adjusted 
accordingly.
    I will work with the NWC Chair to provide you with a brief on the 
B61 requirements analysis process.
    Mr. Garamendi. Are you confident NNSA can perform 4-5 concurrent 
life extension programs?
    Ms. Bunn. At the present time, the Nuclear Weapons Council (NWC) 
baseline plan does not exceed two concurrent Life-Extension Programs 
(LEPs) at any one time. I am confident that NNSA can execute the NWC's 
priorities; although in the current fiscal environment it faces 
increased risk due to the prospect of inconsistent and unstable 
funding. The NWC is actively updating the baseline plan as well as 
evaluating NNSA's progress to ensure a stable and steady workflow for 
the highly talented individuals who are working on these LEP programs.
    Mr. Garamendi. The GAO concluded in a recent report that DOD may be 
significantly underreporting its 10-estimate for the modernization of 
nuclear delivery systems, and does not include potential estimates for 
Air Force efforts to either modernize the ICBMs or develop a new 
bomber. Will you commit to providing a comprehensive and detailed plan 
to the committee on what the costs will be in the next 10 years? And as 
most of the costs for modernization will increase beyond the next 10 
years, do you have an understanding of when the costs will peak and 
what planning is needed over the next 20 years?
    Admiral Benedict. I commit to continue to support the Department of 
Navy's submission of nuclear deterrent modernization budget estimates 
in accordance with section 1043 of the National Defense Authorization 
Act for Fiscal Year 2012.
    Mr. Garamendi. The GAO concluded in a recent report that DOD may be 
significantly underreporting its 10-estimate for the modernization of 
nuclear delivery systems, and does not include potential estimates for 
Air Force efforts to either modernize the ICBMs or develop a new 
bomber. Will you commit to providing a comprehensive and detailed plan 
to the committee on what the costs will be in the next 10 years? And as 
most of the costs for modernization will increase beyond the next 10 
years, do you have an understanding of when the costs will peak and 
what planning is needed over the next 20 years?
    General Harencak. In response to the Government Accountability 
Office (GAO) report, the Air Force has incorporated 10-year cost 
estimates for both the Long Range Strike-Bomber and Intercontinental 
Ballistic Missile modernization in the Fiscal Year 2015 Report on the 
Plan for the Nuclear Weapons Stockpile, Nuclear Weapons Complex, 
Nuclear Weapons Delivery Systems, and Nuclear Weapons Command and 
Control System, as specified in Section 1043 of the National Defense 
Authorization Act for Fiscal Year 2012. The Air Force will continue 
providing such estimates to the Congress in the future.
    These estimates are based on programmed amounts reflected in the 
Zero Real Growth (ZRG) Program Force Extended (PFE) data contained in 
the annual Air Force Integrated Planning Force. These budget values 
reflect the 20-year balanced Air Force funding plan at the constrained 
funding levels required to meet current fiscal requirements. Budget 
figures in this plan are used as the basis for affordability goals for 
future modernization and sustainment efforts that have not yet become 
formal acquisition programs (pre-Milestone B), such as Ground Based 
Strategic Deterrent.
    Mr. Garamendi. What are your top concerns with regard to providing 
adequate safety across the nuclear enterprise?
    Dr. Winokur. The Board's top safety concerns with regard to 
providing adequate protection across the nuclear weapons enterprise are 
summarized below.
    Earthquake Hazard at Los Alamos National Laboratory (LANL): The 
Board believes continued dialogue with the Department of Energy (DOE) 
is necessary to fully resolve issues regarding adequate protection of 
public health and safety in the event of an earthquake affecting the 
Plutonium Facility at LANL. The design basis seismic accident scenario 
results in unacceptably large offsite radiation dose consequences to 
the public. The Board's Recommendation 2009-2, Los Alamos National 
Laboratory Plutonium Facility Seismic Safety, identified the need to 
improve the safety posture of the facility.
    Aging Infrastructure: In our recent Report to Congress: Summary of 
Significant Safety-Related Aging Infrastructure Issues at Operating 
Defense Nuclear Facilities, the Board identified safety- related 
concerns regarding aging infrastructure at DOE defense nuclear 
facilities. These facilities included Chemistry and Metallurgy Research 
(CMR) Facility at LANL, the 9212 Complex at the Y-12 National Security 
Complex, and the Hanford Single-Shell and Double-Shell Tanks as 
examples of some of the most significant safety-related aging 
infrastructure issues that exist today in the DOE defense nuclear 
complex.
    Two of the most critical facilities with respect to aging 
infrastructure are the CMR Facility at LANL, constructed in 1952, and 
the 9212 Complex at the Y-12 National Security Complex that began 
service in 1951. DOE deferred funding for the CMR Replacement Project 
for 5 years, and expects to operate the existing CMR Facility through 
2019. The 9212 Complex is comprised of Building 9212 and 13 collocated 
buildings, portions of which have been in operation for more than 60 
years. The Uranium Processing Facility (UPF) is scheduled to replace 
the 9212 Complex, but DOE does not plan to commence operations in UPF 
until 2025.
    Complex-wide stabilization and disposition of the remnants of 
nuclear weapons production activities enhances public health and safety 
near DOE sites. The cleanup of legacy waste at Hanford presents the 
most significant challenge in this regard. DOE stores more than 50 
million gallons of high-level radioactive waste in 177 underground 
tanks at the Hanford site. Many of the old single-shell tanks have been 
known to leak. In addition, Hanford's double-shell tanks are aging and 
are expected to be in use well beyond their design life. DOE identified 
a slow, but continuing leak from the primary (inner) tank of double-
shell tank AY-102 in August 2012. The Board has been closely following 
DOE's response to the leak, including DOE's evaluations of other tanks 
containing similar waste and the potential impact on the overall waste 
retrieval and treatment strategy.
    At the Savannah River Site (SRS), operations at H-Canyon, HB-Line, 
Defense Waste Processing Facility, and the Saltstone Production 
Facility have permitted steady progress in immobilizing radioactive 
materials in 47 high-level waste tanks. However, factors such as budget 
constraints and facility aging continue to complicate the disposition 
of legacy waste at SRS. The Board's oversight will continue to focus on 
the on-going high-level waste operations and the completion of the Salt 
Waste Processing Facility.
    Early Integration of Safety in Design: The Board believes early 
integration of safety in large, complex design projects and timely 
resolution of safety-related issues are key factors to providing 
adequate protection of public and worker health and safety. DOE has 
struggled with the early integration of safety into its large, complex 
design projects and the timely resolution of safety related issues.
    During 2013, DOE made progress in resolving certain safety issues 
affecting complex design and construction projects. On other issues, 
however, DOE encountered problems with closure and integration of 
safety into the design process. DOE continued to struggle with open 
safety issues at the Waste Treatment and Immobilization Plant at the 
Hanford Site. Beginning in 2012, DOE slowed the construction of two of 
the plant's key facilities--Pretreatment and High-Level Waste--to 
resolve safety issues and to reevaluate the project's design. Many of 
these issues have been outstanding for years.
    Activity-Level Work Planning and Control: The Board's Technical 
Report-37, Integrated Safety Management at the Activity Level: Work 
Planning and Control, and accompanying Board letter issued on August 
28, 2012, outlined challenges in the safe performance of work at DOE's 
defense nuclear facilities. DOE responded by proposing new 
implementation and oversight guidance and is in the process of 
enhancing oversight of activity-level work planning and control by 
headquarters, field offices, and contractors. The Board's future review 
efforts will assess the need for additional DOE requirements to support 
improved work planning and control.
    Criticality Safety at the Los Alamos National Laboratory: In May 
2013, the Board's staff conducted a review of the criticality safety 
program at the Plutonium Facility at LANL. The staff review team 
identified several criticality safety concerns, including widespread 
weaknesses in conduct of operations. On June 27, 2013, the LANL 
Director paused programmatic operations in the Plutonium Facility, in 
part, to enable laboratory management to address nuclear criticality 
safety concerns identified by both internal and external assessments. 
National Nuclear Security Administration (NNSA) managers briefed the 
Board on a strategy to develop criticality safety evaluations (CSE) for 
higher-risk operations prior to resumption. The Board is aware that 
this plan has evolved such that the LANL Director intends to resume 
many higher-risk operations without first developing compliant CSEs.
    DOE directives and industry consensus standards require that CSEs 
unambiguously demonstrate how fissionable material operations will 
remain subcritical under both normal and credible abnormal conditions. 
These CSEs identify controls to ensure safe operation. The Board 
requested a briefing by NNSA on how federal and contractor managers 
will ensure that adequate controls are identified as the contractor 
resumes higher-risk operations in the Plutonium Facility.
    Emergency Preparedness and Response: Emergency preparedness and 
response is a key component of the safety bases for defense nuclear 
facilities. It is the last line of defense to prevent public and worker 
exposure to hazardous materials. The Board believes that the 
requirements in DOE's Directives that establish the basis for emergency 
preparedness and response at DOE defense nuclear facilities, as well as 
the current implementation of these Directives, must be strengthened to 
ensure the continued protection of workers and the public.
    Problems with emergency preparedness and response have been 
discussed at Board public hearings and meetings during the past three 
years, as well as in the weekly reports of the Board's site 
representatives. On March 21, 2014, and March 28, 2014, the Board 
transmitted letters to the Secretary of Energy conveying its concerns 
regarding the emergency responses at the Waste Isolation Pilot Plant in 
Carlsbad, New Mexico, to the truck fire and radioactive material 
release events. These ineffective responses and the consequences of the 
accidents demonstrate the importance of a strong emergency preparedness 
and response program. The topic of emergency preparedness and response 
at all defense nuclear facilities will continue to be a top priority 
for the Board.
    Mr. Garamendi. What will the increased funding over last year's 
appropriations fund?
    Dr. Winokur. The additional $2.1M over the Fiscal Year (FY) 2014 
appropriation of $28M will fund nine additional full-time employees 
(FTE) and an assumed 1% civilian pay raise.
    Excluding additional workload requirements levied by the National 
Defense Authorization Act (NDAA) for FY 2013, the Board requires 120 
FTEs to meet the scope of its oversight responsibilities. Both the FY 
2012 and FY 2013 (apart from the impact of sequestration) enacted 
appropriations provided funding for 120 FTEs. The President's Budget 
for FY 2014 requested $29.9M to fund 120 FTEs; $28M funds approximately 
116 FTEs. An additional 1$1.1M is needed to fund the assumed 1% 
civilian pay raise and four additional FTEs to reach the required 120 
FTE level.
    An additional $1M is needed to fund five (5) additional FTEs (for a 
total of 125) to address additional workload requirements levied by the 
NDAA for FY 2013. The NDAA included several new provisions that 
increase staff workload. The Board's staff must now support formal risk 
assessments by the Board for new recommendations to the Secretary of 
Energy. The recommendation process was also modified to require the 
production of a draft recommendation and an opportunity for the 
Secretary of Energy to comment before the recommendation is made final. 
Additional staff workload is anticipated in the analysis of and 
response to Secretarial comments. Finally, the NDAA for FY 2013 
required that the Board enter into an agreement with an agency of the 
Federal government having expertise in the Board's mission to procure 
the services of the Inspector General (IG) of such agency in accordance 
with the Inspector General Act of 1978. Subsequently, the Consolidated 
Appropriations Act for FY 2014 assigned the IG of the Nuclear 
Regulatory Commission (NRC) to also serve as the Board's IG, and 
directly appropriated $850,000 to the NRC Office of the Inspector 
General (NRC-OIG) for that effort. The NRC is proposing to dedicate 
five full-time employees (to be located at the Board's headquarters) to 
perform IG services for the Board. Having a dedicated, on-site staff of 
five employees from the NRC-OIG performing IG services will generate 
significant additional workload for the Board. Without additional FTEs, 
the Board will have to absorb that workload to address IG concerns 
within its existing FTEs. Consequently, the FTEs directly performing 
the Board's safety oversight mission will decrease.
    Traditional high-risk administrative areas that the NRC-OIG is 
likely to focus on include purchase and travel cards, time and 
attendance procedures, property accountability, and control of 
classified information. The NRC-OIG has also preliminarily indicated a 
potential focus on the following technical performance areas: processes 
for safety oversight, construction oversight, oversight of 
decommissioning, public meetings, oversight of controls to prevent 
inadvertent criticality, and oversight of fire protection. 
Communicating and coordinating with the IG staff, responding to 
requests for data, explaining and documenting work processes, reviewing 
draft reports, etc., will significantly increase workload in both the 
Board's administrative and direct mission areas.
    To address these additional FY 2015 workload requirements, the 
Board requires additional staffing of five FTEs in the following areas:
    <bullet>  A senior-level employee to serve as the Board's sole 
interface with the NRC-OIG staff. Duties would include receiving and 
reviewing requests for data from the IG staff to support audits and 
other reviews, coordinating meetings, communicating data requests to 
appropriate staff for response, reviewing responses provided to the IG 
staff, maintaining a tracking log of pending and completed data 
requests, etc.
    <bullet>  Two mid-level employees in administrative areas to 
support the additional workload generated from administrative audits 
and reviews.
    <bullet>  Two mid-level engineers or technical specialists to 
support the additional workload generated by formal risk assessments 
and Secretarial comments on draft recommendations, as well as the 
additional workload generated from technical performance audits and 
reviews.
    Mr. Garamendi. Are you confident safety is a top priority for NNSA 
and the Department of Energy?
    Dr. Winokur. A focus on safety is essential in any nuclear 
enterprise, and the standard for safety in a nuclear enterprise must be 
much higher than that of a typical industrial activity. The Board 
recognizes that safety is an integral part of the Rules and Directives 
that govern the work of DOE and NNSA personnel at all DOE defense 
nuclear facilities. The Board also recognizes that many DOE and NNSA 
managers embrace the importance of nuclear safety as essential to the 
protection of the workers and the public, and to the mission itself.
    However, at times, some in DOE and NNSA may lose focus on the 
importance of safety, or may allow mission and schedule pressures to 
trump safety. This balance between mission and safety can be 
challenging for managers who must decide where to allocate scarce 
resources. Furthermore, managers may have difficulty measuring safety; 
an absence of accidents may be interpreted as an indication that safety 
programs are no longer needed, leading managers to reduce the staffing 
levels of safety personnel. The safety violations and accidents that 
result are the types of situations that led Congress to create the 
Board more than 25 years ago. Today and going forward, the Board 
believes its mission is still essential to safeguard against these 
situations where DOE or NNSA managers lose focus on safety due to 
competing priorities.
    The Board will be conducting two hearings this year to address 
safety culture at DOE defense nuclear facilities and the Board's 
Recommendation 2011-1, Safety Culture at the Waste Treatment and 
Immobilization Plant. At these hearings, the Board will explore how DOE 
balances mission and safety and whether safety is an ``overriding'' 
priority.
    Mr. Garamendi. Please provide more details on possible MOX 
alternatives that NNSA is considering with regards to the disposition 
of the current nuclear stockpile.
    Mr. Held. On April 29, 2014 the Department released its ``Analysis 
of Surplus Weapon-Grade Plutonium Disposition Options''. Attached is a 
chart from page 35 of this report which summarized the options. 
Additional detail on each option can be found in the report which is 
also posted here:
 http://nnsa.energy.gov/sites/default/files/nnsa/04-14-inlinefiles/
SurplusPuDisposition
Options.pdf
    [The chart referred to can be found in the Appendix on page 156.]
    Mr. Garamendi. Can we achieve a 30 or potentially 50-pit production 
capacity with existing facilities? Did NNSA consider using existing 
facilities across the nuclear enterprise to contribute to the pit 
analysis and production capacity at Los Alamos? And is NNSA an analysis 
of alternatives before planning and designing potential new modular 
facilities at Los Alamos National Laboratories?
    What are your priorities for the plutonium strategy?
    Mr. Held. The priorities for the plutonium strategy are to:
    1. Achieve 30 pits per year in 2026 through Plutonium Sustainment 
program investments and investments to optimize the use of existing 
infrastructure at LANL (i.e., the Radiological Laboratory/Utility/
Office Building (RLUOB) and PF-4) for analytical chemistry (AC) and 
materials characterization (MC).
    2. Cease programmatic operations in CMR by 2019. This effort is 
supported by the investments needed to optimize use of the RLUOB and 
reuse laboratory space in PF-4. The NNSA believes that investments in 
existing infrastructure will support 30 pits per year production; as 
demand increases beyond 30 pits per year, additional space will likely 
be needed. After deferral of the CMRR-Nuclear Facility, NF, an analysis 
of options to use existing infrastructure for plutonium support 
capabilities was performed. Results of this analysis indicated that AC 
and MC capability needs could be met by optimizing existing 
infrastructure at Los Alamos National Laboratory.
    The proposed modular approach provides additional space and extends 
the lifetime of PF 4. This proposal is in its pre-conceptual phase; an 
appropriate alternatives analysis will be performed consistent with DOE 
Order 413.3B as the project develops.
    Mr. Garamendi. Do the pits and secondaries we hold in reserve serve 
as part of the hedge for our nuclear deterrent?
    Mr. Held. No. As described in the report submitted to Congress in 
June of 2013, titled Report on Nuclear Employment Strategy of the 
United States Specified in Section 491 of 10 USC, the hedge currently 
consists of only fully assembled nuclear warheads.
    Mr. Garamendi. Can you guarantee that NNSA can successfully perform 
4-5 life extensions concurrently, as was planned in FY14? How many 
concurrent LEPs does the FY15 plan envision?
    Mr. Held. There are many conditions that are required to 
successfully execute multiple life extensions concurrently. There must 
be sufficient funding, work force balancing, adequate capacity, and the 
absence of significant technical surprises. What I can guarantee is 
that NNSA will do everything possible to ensure success, given the 
requisite resources. The plan described in the FY 2015 Stockpile 
Stewardship and Management Plan has a maximum of five life extension 
programs running concurrently in FY 2023-2025, but they are different 
types of efforts (e.g., development, production) requiring different 
teams.

                                  [all]
</pre></body></html>
